<html>
<title> - LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
            LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

=======================================================================

                             JOINT HEARING


                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                               before the

                     U.S. HOUSE OF REPRESENTATIVES

                                and the

                              U.S. SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, OCTOBER 3, 2012

                               __________

                           Serial No. 112-79

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
78-769                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  


                     U.S. HOUSE OF REPRESENTATIVES,

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                              U.S. SENATE,

                     COMMITTEE ON VETERANS' AFFAIRS

                   PATTY MURRAY, Washington, Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina, 
Virginia                             Ranking
DANIEL K. AKAKA, Hawaii              JOHNNY ISAKSON, Georgia
BERNARD SANDERS, (I) Vermont         ROGER F. WICKER, Mississippi
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JIM WEBB, Virginia                   SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  JERRY MORAN, Kansas
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas

                       Kim Lipsky, Staff Director

                 Lupe Wissel, Republican Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            October 3, 2012

                                                                   Page

Legislative Presentation of The American Legion..................     1

                           OPENING STATEMENTS

Chairman Jeff Miller, U.S. House of Representatives..............     1
    Prepared Statement of Chairman Miller........................    30
Hon. Michael Michaud, U.S. House of Representatives..............     2
    Prepared Statement of Hon. Michaud...........................    32
Senator Richard Lugar, U.S. Senate...............................     3
Senator Mark Begich, U.S. Senate.................................    10
Senator John Boozman, U.S. Senate................................    11
    Prepared Statement of Senator Boozman........................    33

                               WITNESSES

James E. Koutz, National Commander, The American Legion..........     4
    Prepared Statement of Mr. Koutz..............................    34
    Accompanied by:

      Verna Jones, Director, National Veterans Affairs and 
          Rehabilitation Commission
      Michael Helm, Chairman, National Veterans Affairs and 
          Rehabilitation Commission
      Peter Gaytan, Executive Director, The American Legion
      Kenneth Governor, Chairman, National Legislative Commission


            LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

                       Wednesday, October 3, 2012

             U.S. House of Representatives,
                                   and U.S. Senate,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committees met, pursuant to notice, at 10:00 a.m., in 
Room 345, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the House Committee on Veterans' Affairs] 
presiding.
    Present: Representatives Miller and Michaud.
    Senators Begich and Boozman.
    Also Present: Senator Lugar.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. Good morning, everybody. Thank you so much 
for being here. We appreciate you making the trip to 
Washington.
    I am pleased to be joined by colleagues from not only 
across the Capitol, but across the aisle, as well. And as I 
told some of you this morning at breakfast, you know the 
congressional schedule changed a few weeks ago, so a lot of 
Members are not in Washington today. Senator Boozman flew in 
this morning, as a matter of fact. I came in last night, got 
caught in the fog trying to get in.
    And you probably just drove down from Maine, didn't you?
    But we thank you for being here. And rest assured, all the 
Members will not only receive the full testimony of the 
commander but also from the questions that are going to be 
given here. We are Webcasting, as well, so folks will be able 
to see this streaming live. And also it will be stored on the 
Internet so folks can get a look and see for themselves.
    And I have a full statement that I want to enter into the 
record, but I do want to extend a very warm welcome to your new 
commander--we are glad to have you; it was a pleasure to meet 
you this morning--the 2012-2013 National Commander, James E. 
Koutz.
    We are proud to have you with us here today. We look 
forward to your testimony and learning from you where the 
Legion stands on your legislative agenda.
    I also want to welcome the Legion's auxiliary that is here, 
as well; of course, my friends from Florida, who I had a chance 
to visit with this morning at breakfast very briefly.
    But instead of me going through a complete statement, I ask 
unanimous consent that I can enter the full statement into the 
record.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

    The Chairman. And, with that, I would like to go ahead and 
introduce--let's see--Mike, do you want to give a quick opening 
statement?

           OPENING STATEMENT OF HON. MICHAEL MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman.
    I, too, would like to welcome the National Commander here 
this morning, as well as the National President of the American 
Legion Auxiliary also. And I want to thank both of you for your 
advocacy for our veterans and enduring support that the 
American Legion's over 2.5 million members have given for our 
veterans.
    Before we start, I also would like to extend compliments to 
your Washington, D.C., staff, to let you know that the staff 
here in D.C.--it is a pleasure working with them, but they also 
are out there each and every day fighting for the American 
Legion's priorities. So I want to thank you, National 
Commander, for the excellent staff that you have here in 
Washington.
    And I also would like to recognize and ask them to stand in 
the audience the folks from Maine that took the time to be here 
today. I think they are still out in the audience. Would the 
Maine American Legion members please stand up?
    I would like to thank both of you for coming here today, as 
well.
    [Applause.]
    Mr. Michaud. These Committees are charged with oversight of 
the Department of Veterans Affairs and the VA's budget. And 
while it has been busy and frustrating, we have been able to 
accomplish a lot over the last couple of years.
    And we must also make sure that we provide the best care 
and service for our veterans. And we need to, first of all, 
understand how the veterans population is growing, changing, 
and where they are located geographically. And in 2011, we had 
just over 22 million veterans, with 34 million dependents, and 
we had 450,000 survivors of deceased veterans receiving 
compensation.
    And I was pleased to see that the VA's budget for 2013 
reflects many of these changes. But they must do better to do 
outreach for our veterans, particularly those that live in 
rural areas, and to do better with the dependents.
    The VA 2013 overall budget is $140 billion, an increase 
from the 2012 request. And because of the hard work of many 
individuals here in this room, advance appropriations continue 
to help the VA with long-term planning. With advance 
appropriation, we ensure sufficient, timely, predictable 
funding for veterans health care.
    But advance appropriation only works when we work together 
to pass a long-term appropriation bill, as well. Short-term 
continuing resolutions are not helpful in the planning process, 
and we have to do better as Members of Congress on both sides 
of the aisle.
    Although Congress may disagree on a lot of things, I hope 
that we can agree on providing strong appropriation for the VA 
in a nonpartisan effort. And in that regard, I would like to 
thank Chairman Miller for all the effort and hard work that he 
has done on the House side to make sure that the Committee 
works in a bipartisan manner.
    I was troubled by the July report from CBS News that found 
suicide rates for our soldiers is up 80 percent. Our veterans 
are returning from war with invisible wounds that need 
treatment but are discouraged from seeking those treatments for 
various reasons. And as a Nation, we can do better, and we must 
get this right.
    And to The American Legion, I ask you to continue to help 
in this regard. As you lobby the Committee on Veterans' 
Affairs, I hope you are also lobbying the Committees on Armed 
Services to make sure that they are dealing with this issue, as 
well. Care must begin with the person who is on active duty 
before they take off the uniform and become veterans as well.
    Servicemembers--also, if you look at another area of effort 
we have to do better on, that is for military training. Look at 
jobs. Servicemembers are experienced in many different career 
fields that can be varied, such as electronics, medicine, air 
traffic control. And we have to do everything we can as a 
Congress to help our veterans find jobs when they come back. 
And I think it is important for The American Legion, with your 
broad outreach into all the different States, to make sure that 
the States are doing the same thing, as well, to make it easier 
for our veterans to find jobs as well.
    And, with that, I would ask for the remainder of my 
statement to be included in the record. And I want to again 
thank you, National Commander, for being here today, and all 
the members from The American Legion. So thank you.

    [The prepared statement of Hon. Michaud appears in the 
Appendix]

    The Chairman. Without objection, so ordered.
    And Senator Boozman is going to yield his time, at this 
point.
    Senator Lugar, I understand you have a prior commitment. 
And so, in keeping with your schedule, sir, we appreciate you 
being here today to introduce the National Commander for 2012 
and 2013, Commander James Koutz. We appreciate you being here. 
You don't remember this, but I met you for the first time in 
1977 up here in Washington. And so I have great respect and 
admiration for you, Senator.
    The senior Senator from Indiana is recognized, sir.

           OPENING STATEMENT OF SENATOR RICHARD LUGAR

    Senator Lugar. Well, thank you very much, Chairman Miller 
and distinguished Members of the House and Senate Veterans' 
Committees.
    I deeply appreciate this opportunity to address this Joint 
Committee in order to introduce a very distinguished Hoosier, 
American Legion National Commander James E. Koutz, as he 
presents his organization's current legislative priorities to 
this Committee.
    Over the course of my service in the United States Senate, 
I have had the distinct honor to spend considerable time with 
Hoosier servicemembers and veterans from all branches of the 
military. Each time, I am reminded of how fortunate we are as a 
Nation to have so many young men and women who are willing to 
step forward now to defend the ideals upon which our Republic 
was founded.
    It is one of our duties in Congress to ensure that those 
who bear the considerable burden of defending our Nation in 
military service receive the care and support they have earned 
upon their return to civilian life. Since its founding in 1919, 
The American Legion and its members have worked closely with 
officials at the local, State, and Federal levels in providing 
that support.
    I am also very proud to note that The American Legion is 
headquartered in my hometown of Indianapolis, Indiana. I was 
especially pleased to meet with Jim most recently in August 
during the American Legion's 94th National Convention in 
Indianapolis, where he was elected to serve as National 
Commander.
    He brings a wealth of experience to this new post. This 
includes his own service with the United States Army in 
Vietnam, more than 2 decades in the private sector with Amax 
Coal Company, his election as a County Commissioner in Warrick 
County, Indiana, and his service to the veterans of our State 
as a member and President of the Indiana Veterans' Affairs 
Commission. I am confident the talent and diligence that he has 
exemplified have been the hallmark of his career to date, and 
they will continue to well-serve The American Legion during his 
term in office.
    I would like again to thank the leadership and Members of 
the respective Veterans' Affairs Committees assembled here 
today for calling this important hearing.
    I wish Jim and his wife Vickie every success in their 
important service to the 2.4 million veterans that make up The 
American Legion. And I look forward to learning much more about 
the American Legion's important legislative priorities and 
supporting those in the future.
    I thank the chair.
    The Chairman. Thank you very much, Senator, for being here 
with us today. And we know that your schedule is tight this 
morning, so whenever you need to depart, please feel free to do 
so.
    And, Commander Koutz, you are now recognized.

 STATEMENT OF JAMES E. KOUTZ, NATIONAL COMMANDER, THE AMERICAN 
LEGION; ACCOMPANIED BY VERNA JONES, DIRECTOR, NATIONAL VETERANS 
 AFFAIRS AND REHABILITATION COMMISSION; MICHEL HELM, CHAIRMAN, 
NATIONAL VETERANS AFFAIRS AND REHABILITATION COMMISSION; PETER 
 GAYTAN, EXECUTIVE DIRECTOR, THE AMERICAN LEGION; AND KENNETH 
      GOVERNOR, CHAIRMAN, NATIONAL LEGISLATIVE COMMISSION

    Mr. Koutz. Thank you very much, Mr. Chairman.
    I want to thank the Senator, my Senator from Indiana, 
Senator Lugar, for that kind introduction.
    Good morning, Chairman Miller and Members of the Committee. 
First, let me state how proud I am that you took on to have 
this POW-MIA flag and empty chair behind me. I understand this 
is the first time, and I hope it is not the last time. Thank 
you.
    On behalf of the 2.4 million members of The American 
Legion, I appreciate the opportunity to testify before you this 
morning.
    Prior to getting into the details of my written testimony, 
I would like to introduce some of the national officers that 
will serve with me this year. As I call their names, I ask that 
they stand to be recognized.
    National Vice Commanders: David Hall, out of West Virginia; 
Glenn Hickman, Department of Ohio; James Hallie Holland from 
South Carolina; John Neylon from New Hampshire; and Jeanette 
Rae from Nevada.
    Our National Sergeant-At-Arms: Al Pulido from Indiana.
    Our National Adjutant: Dan Wheeler.
    And our National Treasurer: George Buskirk.
    Please stand and be recognized.
    Thank you.
    [Applause.]
    Mr. Koutz. I would like to take a moment to acknowledge 
some special men in the audience who fully comprehend what I am 
just beginning to understand--what it means to sacrifice a year 
of your life to be the face of this great organization--the 
past national commanders of the American Legion.
    Gentlemen, would you please stand and be recognized?
    [Applause.]
    Mr. Koutz. Next, I wish to introduce the leadership of the 
American Legion Auxiliary, the Nation's largest patriotic 
women's organization.
    Please stand as I call your name and be recognized.
    National President Peggy Thomas from Virginia; National 
Vice President Nancy Brown-Park from California; and National 
Secretary Mary ``Dubbie'' Buckler from Indiana.
    [Applause.]
    Mr. Koutz. We also have several past national presidents of 
the American Legion Auxiliary joining us today. I would like 
for them to stand and be recognized.
    With us today is the National Commander of the Sons of The 
American Legion, Chris Huntzinger from Department of 
Pennsylvania.
    Chris, please stand and be recognized.
    [Applause.]
    Mr. Koutz. In addition, several of the men present 
dedicated a year of their lives to serve as National Commanders 
of the Sons of The American Legion.
    Gentlemen, would you please stand to be recognized?
    Most importantly, I would like to take this opportunity to 
introduce and thank my wonderful wife Vickie, my best friend.
    Vickie?
    [Applause.]
    Mr. Koutz. A month from now, U.S. citizens will go to the 
polls across the country and cast ballots in the general 
election. Washington will be focused on that great landscape 
beyond the Beltway. That is where I come from. That is where 
you will find The American Legion.
    You will find The American Legion in rural towns of the 
West, helping veterans make that 4-hour trip to a VA medical 
center. The American Legion is promoting and hosting more than 
200 job fairs throughout this Nation. The American Legion 
service officers are working day and night to help veterans 
understand their VA claims and file applications that won't get 
stuck in a massive backlog.
    The American Legion is in your district, your hometown, and 
your neighborhood. For nearly a century, this organization has 
fulfilled the spirit of its Federal charter in ways that can't 
easily be quantified. Suffice it to say that millions of 
volunteer hours are put in by Legionnaires; millions of real 
dollars are raised to help veterans and their families; and 
millions of lives are touched every year all through America by 
The American Legion.
    By the end of my year in office, I will have spent more 
than 300 days traveling the Nation and sometimes beyond, 
visiting veterans, active duty troops, and patriotic Americans 
everywhere. I will have a rare and unique opportunity to see 
the faces and hear the stories of those who have sacrificed on 
behalf of our Nation.
    They will ask me what The American Legion is doing for them 
today, and they will ask me what their elected officials are 
doing for them. They will want to know what you are doing to 
make things right for America's veterans, their families and 
communities.
    They have a good reason to ask. As today's generation of 
troops comes home from war, they are unsure about their 
futures. Where will their jobs come from? What if they can't 
get the war out of their minds? What if they need a doctor now 
but they can't wait and see one in a month?
    They will want to know what massive cuts in the defense 
budget will mean to small businesses and factories that supply 
defense contractors and hire veterans. Will these businesses be 
shut down? Will we weaken our national security because of a 
weakened economy?
    These are tough questions. Veterans need to know that The 
American Legion and our elected officials are working hard to 
resolve these issues confronting the Nation they swore with 
their lives to protect and defend. These men and women have 
sacrificed in ways we are only beginning to understand. Their 
families have and will. It is truly up to us to ensure their 
sacrifices are rewarded with a promise of a brighter future.
    That brighter future, we all know, depends on the ability 
to earn a decent living. In my written testimony, you will find 
jobs among the American Legion's list of priorities. A stronger 
economy and specifically improved career prospects for veterans 
will go a long way toward solving a number of problems facing 
our Nation today.
    It is no secret that a large percentage of America's 
veterans are struggling to find work, having faced jobless 
rates as much as two-thirds higher than in the comparable 
civilian population in the past year. The American Legion has 
been at the forefront of efforts to combat veteran joblessness, 
and we all know we have an ally in this Congress.
    Specifically, I speak of the progress made in the 
acceptance of military experience for credits toward licenses 
and credentials in a number of trades and career paths for 
veterans. It is just common sense that those who drove Humvees 
through firefights delivering supplies to forward operating 
bases ought to have a leg up when they pursue over-the-road 
truck-driving certification as civilians. Medics who have saved 
lives on battlefields don't need to start at lesson one when 
they are working to become civilian EMTs.
    The American Legion has been fighting this battle longer 
than anybody else. Since our landmark ``Study of Licensure and 
Certification for Veterans'' in 1997, we have worked with 
concerned parties in both the government and the private 
sector. We have been on the Hill, at the Pentagon, with the 
Department of Labor, side-by-side with representatives and 
Presidential task forces, and in the boardrooms across this 
country.
    And it is bearing results. You have worked with us to make 
landmark strides in licensure and certification with 
legislation such as the recent VOW to Hire Veterans Act and the 
Veterans Skills to Jobs Act of 2012. We are grateful for this 
dedication and cooperation that Congress has shown us on this 
issue. Clearly, you have heard the concerns of veterans, and we 
appreciate everything you have done to improve the situation on 
the Federal level.
    But we cannot let up. As The American Legion works to 
capitalize on these gains and increase our efforts, we need 
your support to keep working with the States to improve their 
acceptance of military training, as the Federal Government has 
already done. Legislation like the HIRE at Home Act can help 
State-level efforts to recognize military training, education, 
and experience.
    The American Legion is now working with groups such as the 
American National Standards Institute and Solutions for 
Information Design to advise U.S. Army Training and Doctrine on 
credentialing to evaluate the programs of instruction being 
provided while these men and women still wear the uniform. We 
all need to recognize the top-quality education and training 
men and women of the United States Armed Forces receive when 
they are serving our country.
    We are working with the United States Chamber of Commerce, 
Military.com, and Recruit Military, LLC, to produce hundreds of 
hiring fairs across this country, from big cities to small 
towns, from convention centers to American Legion posts. If you 
have not been to one of these events, I strongly encourage you 
to do so. There you will see firsthand the quality of these 
returning servicemen and women, employers who understand their 
value, and Legionnaires who are dedicated to improving their 
lives.
    The men and women who fought for this country shouldn't 
have to fight for a job when they return home. Veterans, their 
families, and The American Legion will keep working to revive 
our Nation's economy. Efforts to improve opportunities through 
licensing and credentialing, through job fairs and business 
development, must continue in earnest.
    For many newly minted veterans, the ability to get a job 
and earn a decent income has been diminished because of 
sacrifices made in uniform. That is why we simply must come up 
with a solution to a problem that has been with us for years, 
unfortunately, and has gotten worse: the VA claims backlog. I 
would challenge anyone this room to recall a time when The 
American Legion did not come before this Congress looking for 
answers to this worsening problem.
    Among veterans in every corner of the Nation, many who wait 
months or even years for decisions about their claims, this is 
not just some nagging bureaucratic nuisance. The claims 
backlog, which is now hovering at about 1 million cases, is a 
gathering storm of mistrust between those who fought for their 
Nation and those who promised them benefits if should they 
become disabled. Our government's failure to decide their 
claims on time is inexcusable.
    VA's efforts to tame the backlog have not produced positive 
results. American Legion service officers are working around 
the clock to help veterans through their process, and we all 
know that VA has added employees to help solve the problem, but 
this is clearly not enough. Secretary Shinseki has promised to 
break the back of the backlog by 2015, and yet, with more new 
claims outpacing decisions, we are going in the wrong 
direction.
    Congress can no longer simply be concerned about this 
problem. Congress, VA, and The American Legion must work 
together to solve it. And that does not mean simply rewarding 
processors for fast decisions regardless of quality. We have 
found an alarming amount of inaccuracy in claims decisions made 
at VA regional offices throughout the country, and that only 
slows down the progress.
    Earlier this year, when Congress summoned American Legion 
service officers for a hearing about the backlog, we were 
encouraged. These service officers are at the front line of 
this battle every day. They have unique perspectives that can 
help VA contend with its biggest issue.
    We have seen many pilot programs and promises from VA. It 
is time to roll up our sleeves and really fix what is wrong 
with this system. If the Social Security Administration and 
other Federal benefits programs can handle their claims in a 
timely manner, veterans cannot understand why the VA cannot.
    In The American Legion, we have made training our service 
officers a top priority. It is part of the job, not something 
that gets in the way of the job. When we bring our service 
officers together for training twice a year, they make 
recommendations based on the complex system they must navigate 
on a daily basis. They are the ones who can see the flaws in 
the VA work-credit system that rewards quantity over quality.
    There simply has to be a better way to get this done. For 
instance, VA could start counting claims done right as a 
positive and claims done wrong as a negative, so everyone could 
have a more accurate picture of what is really getting done in 
these regional offices. Veterans waiting past a realistic 
target date might be compensated with interest on their claims, 
creating an incentive for VA officers to get these claims 
decided on time.
    There are ways to work with the mechanics of the system to 
make it serve the veteran and not the bureaucrats. We are 
willing to roll up our sleeves and work with you to find those 
ways. The American Legion has people in the trenches who not 
only understand the problems but can contribute to the 
solution. Veterans are tired of hearing how the government is 
working on ending a backlog that continues to grow.
    Veterans and The American Legion want results and are 
willing to do whatever it takes to obtain them. Remember, we 
are all partners in this. Everyone knows the claims process is 
confusing for veterans. The American Legion is there with free 
services to help navigate the system and make things easier for 
both the veteran and the VA personnel who have to decide their 
claims. Nobody gets charged a penny for this service--not the 
veteran, not the government.
    We are out there working to put these claims in order, to 
help make it easier for these veterans by putting them in touch 
with the people who are dedicating their time and effort to 
make the process easier for those veterans. We work with the 
congressionally chartered veterans organizations to get the 
transitioning veterans in touch with the people who can make 
this system run more smoothly. If you work to hand them off to 
us, we will not forsake that trust. We will walk them through 
that transition into the proud, patriotic, and productive phase 
that is life as a civilian veteran.
    The American Legion understands that our Nation is in a 
budget crisis the likes of which has not been seen in over a 
generation. First and foremost, our Nation's veterans are 
deeply concerned about national security in the face of drastic 
defense spending cuts.
    Equally important to The American Legion is the protection 
of VA and veterans programs administered in other Federal 
agencies. Thanks to the tireless work of this Committee and 
especially you, Chairman Miller, Congress and the White House 
have reassured us that the VA will be exempt from 
sequestration.
    Unfortunately, many programs important to veterans are 
funded by agencies outside the VA: Arlington National Cemetery; 
the American Battle Monuments Commission; the Joint Prisoners 
of War, Missing in Action Accounting Command; the Department of 
Labor's VETS Program; HUD-VASH; and others. Veterans are 
seriously concerned that these important government functions 
will be compromised or cut in order to make ends meet.
    And that does not even begin to address the massive cuts 
that will be levied against our Nation's defense, which is 
poised to bear fully half of the $1.2 trillion burden that 
could not be relieved by the supercommittee last winter. The 
Department of Defense is asked to bear this burden while U.S. 
servicemen and women are still at war with hostile enemies in 
Afghanistan and all around the world.
    The American Legion has been promised that the budget would 
not be balanced on the backs of veterans. If cuts to the 
Department of Defense erode TRICARE, diminish quality of life 
for our troops, or put more pressure on our National Guard and 
Reserve components, it is clear that an unfair portion of 
responsibility is falling upon the shoulders of America's 
current and future veterans.
    While the budget does not fall squarely on the shoulders of 
the House and Senate Veterans' Affairs Committees, we urge you 
to work with your colleagues to find the right balance without 
sacrificing our Nation's ability to defend itself or to care 
for its protectors.
    I am grateful for the work this Congress has done on behalf 
of our veterans. I will tell Legionnaires and their families 
throughout this country that their elected officials are, in 
fact, working with us, the stakeholders, to solve some very 
serious problems. I will explain to them that our voices matter 
in Washington and we are being heard. Now it is time for all of 
us to act on those voices and make good on our promises to the 
men and women who have served.
    I thank you for the opportunity to come before you and 
renew the commitment of The American Legion to work closely 
with Congress to ensure that we are meeting this Nation's 
obligations to its veterans. Since 1919, The American Legion 
has been there for America's servicemembers, veterans, and 
their families. Our organization is a voice for the hundreds of 
thousands of men and women serving today in the military who 
are unable to speak for themselves.
    The American Legion is there for millions of veterans, many 
of whom are either too proud or too humble to demand the 
benefits they have earned. The American Legion is there to give 
you, our elected officials, a direct lane of communication with 
a very special breed of constituents--those who have pledged 
their lives to the Nation we all love.
    It is much more than good political sense to address the 
questions, problems, and issues our Nation's veterans and their 
families face today; it is a sacred obligation. I think we can 
all agree on that.
    Thank you. God bless you, and God bless the United States 
of America. Thank you.
    [Applause.]

    [The prepared statement of James E. Koutz appears in the 
Appendix]

    The Chairman. Thank you very much, Commander. We appreciate 
your testimony and look forward to an opportunity to ask some 
questions momentarily, but Senator Begich from Alaska has 
arrived. And since the House had an opportunity to give our 
opening statements prior to your comments, I would like to 
recognize Senator Begich.
    Good to see you, sir.

            OPENING STATEMENT OF SENATOR MARK BEGICH

    Senator Begich. Thank you very much. I appreciate it. I 
will try to be brief.
    And, first, Commander Koutz, thank you for being here. 
Thank you for your testimony and being part of this. And all 
the Members that are here today.
    I know, as Congress, the Senate is out. But there are a 
couple of us here. We wanted to make sure the Senate is well-
represented. We care deeply about what is going on with the 
veterans and the issue of our veterans community, not only in 
the Nation, but all across that--in our State, for example.
    And, also, I want to make a note of past national commander 
Jimmy Foster. I caught a glimpse of him over here.
    Thank you for traveling all the way from Alaska to be here. 
You and Hawaii, if there is someone from Hawaii here, get a 
special award for traveling the distance. So thank you very 
much for being here.
    Mr. Chairman, thank you for once again having this joint 
meeting.
    It is always important for us here in Washington to hear 
from all of you of what we need to be doing, how we are doing, 
what job improvements we need to have with regard to our 
veterans, as well as--and I know at times we talk about our 
active military, too, and I know you have lots of ideas in that 
arena, so please don't hesitate.
    As you know, this summer, the Congress passed a pretty 
significant piece of legislation, the Honoring America's 
Veterans and Caring for Camp Lejeune Families Act of 2012, 
which really helped improve many fronts, enhancing specially 
adapted housing programs for disabled veterans, improving the 
VA's ability to end homelessness among veterans, providing 
health care for veterans, family members exposed to toxic 
drinking water at Camp Lejeune, removing several inefficiencies 
in the claims process--but, honestly, as we all know, more to 
be done there, with regard to moving our claims forward--and 
expanding critical health care for our veterans.
    And a special thank you to the VA. I know we are always 
trying to hold them accountable, and we are doing a good job at 
times. Sometimes we have to push them a little bit extra. But 
there was one thing they did for rural Alaskan veterans which 
was critical, and I want to thank your organization for helping 
support this effort.
    And that is, the VA and Indian Health Services, in a 
historic act of cooperation, are now ensuring that veterans who 
are in rural Alaska--which, in some cases, 80 percent of our 
communities are not accessible by roads. So they can't get into 
the veteran van and go down to the clinic, because there is no 
van to take them to the clinic because there is no road to take 
them to a clinic. You have to fly. At the end of the day, it 
could be $1,000 or more.
    But the VA, through the Indian Health Services, and our 
clinics throughout rural Alaska are now in a cooperative effort 
to ensure that veterans, no matter where they live, in any 
rural part of Alaska, they are going to get access to quality 
health care. And that, to me, is a huge step for our thousands 
of veterans in Alaska.
    So thank you to your organization to help support that 
effort. And thanks to the VA for being a little innovative in 
their efforts.
    So thank you all very much for being here, and I will just 
listen to the continued testimony.
    The Chairman. Thank you very much, Senator.
    I would also like to recognize my friend from Arkansas, 
Senator Boozman.

           OPENING STATEMENT OF SENATOR JOHN BOOZMAN

    Senator Boozman. Thank you, Mr. Chairman. It really is good 
to be with you and Congressman Michaud.
    Many of you know that I served in the House for a number of 
years and served with these guys for a long, long time. And 
there is nobody that puts veterans first, you know, in regard 
to these two.
    You guys do a great job. Not only you, but it is also a 
pleasure to be with your staffs on both sides, both the Senate 
and House staff.
    This is kind of a unique fraternity, serving in the 
Veterans' Affairs Committee in the House or Senate. This is an 
area where we really do work and get along and do things in a 
very, very bipartisan manner, which is so important.
    Senator Begich, it is great to be with you.
    Senator Begich is a new friend. He and I have worked 
together on a number of bills having to do with women's issues, 
having to do with the Transition Assistance Program, and things 
like that.
    Congratulations. Thank you for being here, Commander. We 
appreciate you so much. Your testimony was great.
    I also want to thank Peggy for all that you do. We know who 
really does the work amongst the group. I have a wife and three 
daughters, so I am very, very aware of that. But we do 
appreciate all that you do.
    And then, also, I thought it was so nice, you know, 
mentioning your wife, your partner and friend and things. And 
my dad did 20 years in the Air Force. And I think, you know, it 
was representative of her help through the years, but, also, it 
is so representative of that when you are in the military, it 
is not just an individual thing, it takes the whole family. And 
so we appreciate her being here and representing that also.
    I want to recognize our folks from Arkansas, and our State 
commander, Mary Irvin, is here.
    Where are you, Mary? Very good. Thank you for being here.
    And then, also, R.D. Kenzie and Steve Gray. And, again, we 
appreciate you all so much and all that you do to work so hard 
for our veterans in the State of Arkansas. And we have a 
number.
    Certainly, this is a very critical time for our Nation's 
veterans, and it is so important that the Legion--you know, it 
is so important that you are here. Don't ever underestimate how 
important it is here, again, telling your Congressmen, your 
Senators, their staffs--which sometimes is even more important, 
telling their staffs--how important these things are as we move 
forward.
    I know that all Americans are very concerned about 
employment security, but veterans, in particular, are 
struggling with meaningful employment and careers. This is 
certainly a very difficult economy. You mentioned, Commander, 
the VOW to Hire Heroes Act and the Veterans Skills to Jobs Act. 
As you said, you know, certainly these are a step in the right 
direction, but--and, again, everyone deserves credit in a very 
bipartisan way for moving that forward. Yet there are still a 
number of things that we can do and will do in that area.
    On the other hand, we have to be careful. You know, 
certainly, we want to do these efforts; we can't do those by 
mortgaging the futures of our children and grandchildren by 
borrowing money from people like China. So we owe this, again, 
to our veterans, in the sense of their honor and sacrifice. But 
we can do that. Like I say, we can get that done and will get 
it done.
    The failure of the Joint Deficit Committee has left us with 
the looming arbitrary cuts. Those have been mentioned, you 
know, both from up here and down there. I am pleased that the 
House, you know, essentially passed a bill that said, no, these 
impending cuts aren't going to affect military families. And, 
certainly, I think that is all of our's position. We would like 
for the administration to clarify better, you know, that that 
is set in concrete.
    So, again, certainly, as you said, Commander, we must make 
it perfectly clear that under no circumstances--we cannot and 
will not balance the budget or solve our fiscal problems on the 
backs of our men and women in uniform and our veterans.
    [Applause.]
    Senator Boozman. I though you all were napping. That is a 
deafening applause. And, again, the good news is that I think 
that we are all on board.
    Thanks for your efforts with suicide prevention. You know, 
that is something that we are working on very, very hard here. 
There is just a number of things, you know, in regard to that.
    The other thing that I am concerned about is military 
voting. You know, that is something that--if anybody has a 
right to vote, it is the men and women that are serving 
overseas. And so, again, I think in a very bipartisan way, we 
are working to ensure that, you know, that is not going to be a 
problem. And so we are going to press on forward in that front, 
and we appreciate your all's efforts also in doing likewise.
    So, again, thank you for being here.
    And now let's go ahead, Mr. Chairman. I know we have some 
questions for the panel.

    [The prepared statement of Senator Boozman appears in the 
Appendix]

    The Chairman. Thank you very much, Senator. We appreciate 
your comments.
    And, again, because we have two House Members and two 
Senators, we may dispense with the typical 5-minute question 
period. I would probably ask a question and then turn to Mr. 
Michaud or to Senator Begich, so we can kind of have a little 
bit more of a free-flowing discussion than we normally would in 
a process like this.
    I do want to draw attention to the fact that you 
congratulated or thanked the U.S. Chamber of Commerce for the 
job fairs that they are holding around the country. I had the 
opportunity, a week ago Monday, or Tuesday I guess it was now, 
to be in West Palm Beach with Allen West, down there attending 
a job fair and function. And they have been all over this 
country. For some reason, they haven't been to my district yet; 
we will see if we can fix that.
    But your organization and theirs have been working 
collaboratively. And we know that because the unemployment rate 
is so high among our returning veterans that something has to 
be done. We see a lot of the corporations around this country, 
and small businesses as well, that are joining together to make 
sure that we can use the talents that our military men and 
women have when they come home and transition back to civilian 
life.
    And that is something that, again, you have helped us get 
that word out to many of the States' Governors around the 
country, that, in fact, their jobs that they had in the 
military certainly should transition well into the private 
sector.
    I have said it many times. I have a good friend that is a 
homebuilder. He said, ``Give me somebody that has been in the 
military, that knows how important it is to show up to work 
every day on time, has good critical skills, decision-making 
skills, and I can teach him how to build a house. But bring me 
somebody that knows how to build a house and is absent of those 
skills, it is very difficult for me to be successful.'' And it 
is very, very true.
    With that, I want to focus a little bit--
    Senator Boozman. Can I just add to that, Mr. Chairman?
    The Chairman. No. No.
    Senator Boozman. Please?
    [Laughter.]
    Senator Boozman. Very shortly.
    You know, the Chairman was talking about, you know, these 
jobs skills. Last night I got up at 4 o'clock. I had a 6 
o'clock flight, so I was at the airport at 5 o'clock. So I was 
up at 4:00. But before that, I was riding with the Little Rock 
Police Department, you know, throughout the different areas, 
you know, just trying to get a feel for how we could be helpful 
to them.
    But one of the things they mentioned was how desperately 
they need policemen and how much they liked returning 
servicemen and women, you know, the great job that they do.
    One of the things that they mentioned was the training 
process is so--you know, it takes a long time. And it just goes 
to, you know, what we have talked about, getting certificates 
in the military so that a military policeman, once he completes 
his training, he is given a certificate. They can take 
certificates from other training States, you know, and things 
like that, but they don't have the ability to do that there.
    So it just highlights, you know, what you are talking 
about, how we can do some of these things, again, to very 
quickly put some men and women in the workforce.
    The Chairman. Very true. Because it is also a process of 
putting them together. The folks that are looking for people 
who want to work and getting the people who want to work--and 
that is where Military.com and Monster.com and a lot of other 
organizations have done a great job. Although the job has yet 
to be finished, but they are helping put those folks together.
    But I want to hone in, if we can, for just a minute on the 
claims backlog. Because I think, you know, obviously, that is a 
huge issue that is out there that everybody in this room is 
concerned about. Congress is concerned about it; Department of 
Veterans Affairs is concerned about it. But it doesn't seem to 
be getting any better.
    Secretary Shinseki has already said several times--you 
quoted it in your opening statement--that by 2015, that, you 
know, within 125 days, the idea was that everybody would have 
their claims adjudicated at 100 percent. Well, it isn't 
happening.
    And, unfortunately, we had a hearing just a couple of weeks 
ago where we kind of took a status check with VA, where are 
you? Their focus was more on what they were turning out, which 
is exactly what you talked about. And that is important: a 
million claims being adjudicated. But the backlog is growing. 
And if you are not keeping up with that backlog, it is 
certainly not going to assist and fix the problem.
    So, again, I would like to hear from you, if you would, 
your perspective on, what are the things that can be done? What 
can Congress do legislatively, if you will, to assist the 
problem?
    We all talk about the electronic medical record, but that 
is years away from being able to truly have that seamless 
transition. We are moving in that direction, but we have folks, 
you know, today that are waiting 1, 2 years in order to have 
their claims adjudicated.
    And we have put dollars forward, we have put bodies 
forward; it does not seem to fix the issue. So I would like to 
hear what you think.
    Mr. Koutz. Well, Mr. Chairman, I think one of the things 
that we could do is do more hiring of adjudicators, do more 
hiring of the processors.
    As you probably know, a lot of these claims that are coming 
back, they are not completed. They need to be fully developed 
claims. You know, I believe like any other business, if you are 
in a backlog, then the only way to get that backlog taken care 
of is to hire more people.
    And I understand in the VA, being a former--or a still 
commissioner of the Indiana Department of Veterans Affairs, 
that it takes time to train an adjudicator or a claims 
processor. So that will take time. But maybe we can--and I 
don't really know how much overtime they are working, if they 
are working overtime.
    But I think that they got to do these claims more 
accurately. Because when they come back, the first thing that 
we see is mistakes. Then that claim goes right back to the 
regional office, and we are starting all over again from step 
one.
    So I think that is the biggest thing, is maybe get the 
accuracy, which the Secretary said that he would like to have a 
98 percent accuracy. If we get to that number, then I think you 
will see the backlogged claims be reduced.
    The Chairman. Do you know the percentage of the claims that 
your service officers put together that are adjudicated 
complete? I mean, they may not necessarily get the rating that 
they are asking for, but the percentage of packages that are 
completed?
    Mr. Koutz. I don't know, but Peter Gaytan, the Executive 
Director of our Washington office, probably has an answer for 
you.
    Mr. Gaytan. Thank you, Commander.
    Mr. Chairman, The American Legion takes very seriously the 
quality of our work and our training of our service officers. 
Twice a year, we put our service officers through rigorous 
training to ensure that they have the qualifications, 
knowledge, and skills to not only to produce quality, fully 
developed claims that we submit to the VA but also to help 
reduce the backlog. Because it is going to be a team effort to 
do that. We are going to have to have, as the commander said, 
qualified, well-trained service officers to do this work.
    Now, your specific question on the number that The American 
Legion adjudicates--
    The Chairman. Or percentage.
    Mr. Gaytan.--I would like to defer to our VA&R Director, 
Verna Jones, who handles that area.
    Ms. Jones. Thank you.
    Mr. Chairman, we actually received a report from the VA 
just last week, and I can tell you the number of claims. The 
American Legion handles 244,000 claims, annual. That is our 
number this year, 244,000.
    Now, I am not sure of the exact percentage, but the number 
is 244,000 for The American Legion nationally.
    The Chairman. Okay. If you would, just for the record, if 
you could let us know just the percentage.

    [The attachment appears in the Appendix]

    The Chairman. I am trying to get a handle, you know, on how 
many claims are being done by the veterans themselves, 
obviously using the veterans service officer. You know, the 
assumption, from my standpoint, was it would be better to go 
through a service officer in order to file your claim, but I 
just--I am interested in knowing, for no other reason than I 
think folks up here on the dais would like to hear it.
    Mr. Michaud, do you have a question?
    Mr. Michaud. Yes, thank you very much, Mr. Chairman.
    I also would like to thank Senator Boozman for his very 
kind and generous remarks. I am very glad to see that you 
haven't forgotten the House that you came from and you are 
willing to come back over here on the House side. And I really 
enjoyed working with you and continue to work with you.
    Once again, I would like to thank you for coming here today 
to put forward your ideas of what The American Legion would 
like to see Congress do and some of the concerns that you 
currently have out there. And The American Legion is a strong 
advocate for our veterans and for all those who have served, 
and that is known throughout the halls of Congress.
    I want to take this opportunity, however, today to discuss 
an issue that is really important to our troops and for our 
country. We all remember the outrage this summer when it was 
discovered that our Olympic athletes were wearing uniforms made 
in China. Well, I think we should be as equally outraged by the 
fact that our troops are not wearing 100-percent-American-made 
uniforms. Our soldiers put their lives on the line for us. They 
should fight in uniforms that they can trust, uniforms made in 
the USA.
    Next week, I will be going to a funeral for a soldier that 
died over in Afghanistan in Maine.
    When you talk about uniforms made in the USA, I read an 
article--and I left you a copy; I know you haven't had a chance 
to read it yet. But I am not the only person who is upset with 
what is happening with our military today. I was reading an 
article in the Air Force Times where it says, ``Master sergeant 
says 'no' to Chinese-made boots.''
    He was issued a pair of Chinese-made boots. He made a stink 
about it. He ultimately did get American-made boots. He was 
sent to Afghanistan, and over in Afghanistan he was given a 
uniform, the Army Operation Enduring Freedom camouflage 
uniform. He asked for a pair of required boots, the tan boots. 
Well, guess what? He was issued a pair of Chinese-made boots 
once again.
    In the article, you will see where the master sergeant, at 
the end--and I would like to quote it, what the master sergeant 
said. And I quote, ``This is about patriotism. This is about 
following the Berry amendment set forth over 60 years ago. This 
is about American soldiers wearing our country's uniforms made 
by Americans.'' And I couldn't agree more with the master 
sergeant.
    At a time when our Nation is divided and the discourse in 
Washington, D.C., is extremely negative, it seems to me, with 
the outrage for our athletes wearing Chinese-made uniforms, 
that this is one issue we all can agree on. Even both 
candidates who are running for President of the United States 
are criticizing one another about not being tough on China. And 
both campaigns are talking about making sure more things are 
stamped with ``Made in the USA.''
    Well, there is a way we can get tough on China: increase 
things made in the USA and to make sure that our American 
soldiers are not treated as second-class citizens, that they 
have the best. That is what they are fighting for, this 
country, United States of America.
    And I find it extremely concerning because this issue is 
not an issue that needs Congress to act, it is not an issue 
that we need a regulatory agency to address; it is an issue 
that is already the law.
    So my question to you is, what is the American Legion's 
position? Do you believe that our soldiers that are putting 
their lives on the line each and every day for us, should they 
be wearing clothing made in the United States of America?
    Mr. Koutz. The answer is yes. The American Legion believes 
that--
    [Applause.]
    Mr. Koutz. I am sure The American Legion and the American 
people believe that all equipment should be made in the United 
States of America.
    And there you go again; we are talking about jobs. Put the 
Americans to work making these boots. That will provide jobs 
here at home.
    Mr. Michaud. Well, I want to thank you very much, National 
Commander.
    And just for the record, I know Congressman Duncan Hunter, 
who is a Republican colleague from California, he and I are 
writing a letter--we encourage our colleagues to sign that 
letter--to the administration, requiring them to comply with 
the intent of the law. And it is unfortunate we have to do 
that. And hopefully we will see some changes in that regard.
    Thank you very much. I yield back the balance of my time.
    [Applause.]
    The Chairman. Senator Begich?
    Senator Begich. Thank you very much.
    Just a couple questions, but I wanted to mention also, in 
March--for Jimmy, this is for you also--that we are going to 
hold a jobs fair for veterans.
    And it is an interesting thing. When you do these jobs 
fairs, there is an incredible amount of folks that come out. 
And I just met this morning--why I was late here was I was 
meeting with franchisors, a few franchise businesses, 
restaurants, so forth. They have a new initiative to help 
veterans get into that business. And so we are very excited 
about what is happening with the small-business community 
regarding our veterans.
    Let me, if I can--Ms. Jones, you mentioned 244,000, give or 
take, claims you have processed. Do you keep track of the 
acceptance rate? And what I mean by that is, you submit them; 
how often do they, kind of, make it through the system 
successfully? What is that percentage?
    Ms. Jones. Thank you, sir.
    Because it takes so long for those claims to travel through 
the system, it is almost impossible for us to keep an accurate 
accounting of how many of them are awarded, how many of them 
denied. But I will tell you that at our Board of Veterans' 
Appeals we keep track of the amount of claims that are 
overturned. And right now we are at 76.6 percent of claims that 
have been adjudicated in error and overturned by the Board of 
Veterans' Appeals.
    Senator Begich. Uh-huh.
    Ms. Jones. The VA puts out an annual report that breaks 
down how many claims they adjudicate every year and how many of 
them have been awarded, how many of them have been denied. But 
they don't break them down by POA, or by the power of attorney, 
for each veterans service organization.
    Senator Begich. It would be an interesting--maybe it is 
something we can ask the VA to do on a regular basis. Because 
there would be good--because my bet is your officers are doing 
a great job. And that is my bet. And, you know, if it is 
working so successfully, maybe there is an opportunity to 
streamline it even more. So if you are already having a very 
high success rate in acceptance of these claims, then maybe 
there is a way to look at the process and slim it down a little 
bit on the VA side.
    Because your rate of success and doing the claims as 
successfully as you are doing them should be a benefit to you 
all and also, obviously, the veterans who are receiving that 
benefit. So maybe there is a little opportunity there if we 
measure the success rates there.
    Ms. Jones. Absolutely, sir. As a matter of fact, we asked 
the VA for those numbers just yesterday.
    Senator Begich. Oh, good.
    Ms. Jones. We expect to receive them shortly, and we will 
make sure that you get a copy of that.
    Senator Begich. Will you share with us individually or 
through the two Committees? I think that would be helpful. 
Because that would help us, I think, make the case of why your 
services officers can process these very successfully.
    And, therefore, maybe there is--again, I know the VA 
duplicates some of the work once you do all this. It is like, 
well, maybe we can cut some of that out, make it a little 
faster, and base it on your past success rate.
    Ms. Jones. Yes, sir.
    Senator Begich. So let's take a look at that.
    The second thing, I guess, Commander, maybe you can answer 
this or maybe give some comment on it with regards to mental 
health services. And I know it is a big issue. You know, we are 
struggling, I know, in the Armed Services Committee, which I 
also sit on. We have been successful in now getting mental 
health service providers in the battlefield, at that level. 
Rather than waiting for folks to come home and then try to 
figure out what to do at that point, we are trying to step it 
up on the front end.
    And it has been very successful, to some degree. But I know 
the VA is agreeing to hire more providers and services, but the 
challenge is getting more in the pipeline. So maybe you could 
give some thoughts there.
    I know in the bill we passed earlier I had an amendment, 
which was successful, which ensured that if you use mental 
health services through telemedicine, which is proving to be 
very successful, no co-pays are required anymore, which I think 
is a huge step in getting better access.
    But do you have some thoughts or innovative ideas of how we 
can get more mental health service providers and veterans 
access to those folks?
    Mr. Koutz. Well, hiring more mental health services and 
providers--with the percentage of these troops coming home with 
traumatic brain injury and PTSD, we know that that is going to 
increase. It is going to increase immensely. So I think we are 
going to have to get to where we can train these people so that 
we can take care of these soldiers when they come home.
    Senator Begich. Uh-huh.
    Mr. Koutz. I don't know if the rate--I think, from what I 
am understanding, the rate is maybe 50 percent, if not more, of 
these returning soldiers coming back from Afghanistan and Iraq 
that are having these two problems with TBI or PTSD. I think 
the sooner that we can get this job done, the better off we are 
going to be, so we can take care of these soldiers when they 
come home.
    Senator Begich. Very good.
    Let me--Mr. Chairman, I have just one quick question.
    I caught most of your testimony because I came in just as 
you were starting. And I just wanted to ask, I didn't hear you 
mention the GI Bill. And I am just wondering if there are 
issues, or the success of the GI Bill, or are there things that 
we should look at to improve.
    I know we made one improvement these last couple years, and 
we are getting a lot of use of the GI Bill. But are there any 
thoughts you want to add on that issue while you are here?
    Mr. Koutz. The GI Bill is in good shape right now. The only 
thing, I think, that The American Legion is concerned about is 
that we need to keep watching and see how things are going with 
the GI Bill in case we need to improve it.
    Senator Begich. Good.
    Mr. Koutz. You know, there is always room for improvement 
in the GI Bill. But right now we have no major issues with the 
GI Bill.
    Senator Begich. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Commander, you know, you can have great benefits, but if 
you can't access them, it is a real problem. And I know that 
you all have been working hard for our rural veterans, you 
know, trying to ensure that the accessibility is there. We have 
been working with Senator Franken and actually passed a bill in 
Committee that would require the Office of Rural Health to put 
out a specific strategic plan, you know, as to how to do that.
    I know you all have been very, very active in that regard. 
Can you elaborate on some ways that you feel like we can do a 
better job in serving our rural veterans?
    I know, also, you know, there is a move to expand the 
Census Bureau definition. Again, if you could elaborate a 
little bit, that would be helpful.
    Mr. Koutz. Well, The American Legion believes that to take 
care of this rural health care problem we have that we need to 
add more clinics, more outpatient clinics, more doctors, so we 
can take care of this. As you heard me, probably, in my opening 
statement, I said some veterans are driving up to 4 hours.
    Senator Boozman. Right.
    Mr. Koutz. And then when they get there, they probably 
can't get in. So the problem is that we don't have enough 
staff, doctors, the medical equipment. So if we maybe add 
staff, add more clinics to take care of the rural veteran, I 
think that would be a big asset in helping these veterans.
    Senator Boozman. And telemedicine? Vans?
    Mr. Koutz. Sure.
    Senator Boozman. Things like that. Very good. Well, we do 
appreciate your efforts in doing that.
    You know, it is interesting. We are working with Senator 
Franken, you know, and he is a--you know, you have some large 
cities, you know, in his State, but it is a very rural State, 
you know, as is Arkansas and so many of the places that we 
represent.
    I mentioned the licensing, you know, and how it came up, 
you know, with the police. I know you all are really on the 
cutting edge of that. I think you had, you know, a summit. Can 
you tell me a little bit about how that went and some of the 
suggestions perhaps that you have in that area?
    Mr. Koutz. I didn't understand your question.
    Senator Boozman. The credentialing, making it such that--
    Mr. Koutz. Licensure and--
    Senator Boozman. Yes, sir.
    Mr. Koutz. Well, and just like the Veterans Skills to Jobs 
Act, you know, as I said in my statement, that if you are a 
Humvee driver over in Iraq or Afghanistan, dodging IEDs and 
land mines, then when you come home, you ought able to be a 
truck driver. Or if you are a medic, you ought to be able to 
come home and not have to go through step one of being an EMT 
in civilian life.
    So I think, you know, that credentialing and--I think you 
are working in the right direction and we are working in the 
right direction to make this better for our veterans and our 
servicemembers when they come home.
    Senator Boozman. The Congressman, the Chairman, you know, 
mentioned what is on all of our minds, you know, the backlog 
and the stuff, how can we be helpful. Can you describe in a 
little bit more detail the Claims Coach mobile phone--the app, 
you know, what that is going to be about, how that is going to 
be helpful?
    Mr. Koutz. I would let Verna from VA&R, Verna Jones, answer 
that question.
    Senator Boozman. Sure.
    Ms. Jones. Thank you.
    Our Claims Coach mobile app is set up to help veterans 
download this application on their mobile phones that will 
direct them to a veterans service officer. It will help the 
veteran sort out what they need to gather--information, 
documents, what documents they need to bring in. And it will 
even help them put in their ZIP code and determine which 
veterans service officer is closest to them to help them with 
that.
    So the mobile app is going to set the veteran up so that 
when they walk into the veterans service officer's office, they 
are more able to have a fully developed claim, which we know is 
supposed to go through the system more quickly. So we are 
excited about the mobile claim app and hope that more veterans 
will download that claim app to help them get ready to file 
their claim.
    Senator Boozman. Yeah. Very good. That is excellent. I 
think that will be very, very helpful.
    Just one last thing, Commander. Can you elaborate on your 
comment regarding the VA health care system, that growing 
numbers of female veterans in a system that has traditionally 
catered to men, must adapt to meet the unique needs of today's 
veterans population, you know, with us having so many more 
females in the military?
    And, I guess, if you could elaborate on that and really 
tell us how you feel like the Department can improve the 
delivery of care and benefits to an increasing number. Not only 
do we have a large number now, but we have an increasing number 
of female veterans in need of VA services.
    Mr. Koutz. Well, with the 20 percent of our military force 
being females nowadays, we believe that we must have better 
medical care; we must get the doctors that can take care of our 
female veterans in these VA clinics.
    You know, from what our understanding is on a survey that 
we took, there was only 25 percent of the female veterans that 
felt that the VA medical system was better than going to their 
own. So I think that we need to just maybe do a better job in 
taking care of our females.
    What I have been trying to do is trying to get a woman 
veterans coordinator in every department in The American 
Legion.
    Senator Boozman. Very good.
    Mr. Koutz. And once we get all that Committee together--
that I am hoping that The American Legion will get these female 
coordinators together, and then they can tell us the needs that 
they need to have, and then we can relay it to you.
    Senator Boozman. Very good. Thank you, Commander.
    Mr. Chairman?
    The Chairman. Thank you very much.
    You were talking about the GI Bill and some of the 
education benefits. One of the things that the Legion can help 
us with, as we have just changed into a new fiscal year, and 
that is with the VRAP program, or the Veterans Retraining 
Assistance Program. I think we did 45,000--we, Department of 
Veterans Affairs, 45,000--or Labor--45,000 applications 
approved. There were many that were in the queue that were 
waiting.
    We actually authorized 99,000 total. As of today, the 
numbers that I have, there are 63,844 applications, of which 
50,000 of them were approved. So there is still, you know, 
roughly, another 36,000 folks out there that can access these 
benefits for retraining.
    So I would like to ask for your help, with the Legion's 
help, in getting the word out to those individuals. You know, 
we focus a lot on the younger returning veterans, but, 
obviously, this is focused on 35- to 60-year-old folks, to get 
them retrained to come into the workforce.
    And so I just bring that to your attention. You had talked 
about the VOW to Hire Heros Act. That was part of it. So we 
would like to ask for your assistance with getting the word out 
on that.
    Also, we were talking about mental health. I would like to 
ask a question. And anytime you talk about going outside the 
norm, we get some visceral responses. But we had a roundtable 
discussion with some of the veterans service organizations 
recently here, in talking about mental health and how do we get 
the patient to be able to get to the provider as quickly as 
possible. And it takes VA so long to hire somebody, especially 
somebody that is accredited with some type of a medical degree, 
whether it is a nurse or a physician, psychologist, 
psychiatrist, optometrist--whatever it may be.
    And there has been some discussion about opening TRICARE, 
to give the option for folks to either stay in the traditional 
VA track or go into the TRICARE system, still being managed--
their care being managed by VA. We could double the amount of 
providers overnight if we were able to do something.
    Does the Legion have a position? Are you willing to look at 
these options to help solve what literally is a crisis in this 
country? Our mental health backlog out there is something not 
to be proud of.
    We have to provide it quickly to those that are in need, 
wherever they may be. And some of them are in rural areas, and 
it is very difficult. And it is very difficult to do a lot of 
it via telehealth, which--Senator Begich has talked about 
telehealth and the great success, but mental health may be 
somewhat different, especially in the very, very beginning.
    So I would like to ask what the Legion's position, if any, 
on exploring the opportunity.
    Mr. Koutz. Well, just let me say a few words before I turn 
it over to our Executive Director, Peter Gaytan.
    But we understand that is a big issue. We understand there 
are problems there, and we understand that we are going to have 
to train the people to take care of these mental health--you 
know, a lot of these mental health people probably don't even 
want to come to us. They want to stay in the back. But I think, 
with your help and our help, that maybe we can go to those 
people and get them out and come and get the help they need.
    So, with that, I will turn it over to Peter, our Executive 
Director.
    Mr. Gaytan. Thank you, Mr. Commander.
    And that is a real issue, what you are bringing up, 
beginning with the access to mental health. The access to 
mental health right now is efficient. You mentioned telehealth. 
The VA is utilizing other resources, like telehealth. And it is 
going to be a growing problem, in terms of mental health care.
    But specifically with the suggestion of opening up TRICARE 
and utilizing TRICARE, The American Legion was at that 
roundtable, and we appreciate the invitation. It is something 
we are taking under consideration to consider. We would like to 
see the reality of that being in effect. How much will it 
improve our veterans' access to mental health care that they 
need?
    Because when we are looking at the new demographics of 
returning veterans--and we have talked about rural health care, 
and The American Legion published a report earlier this year 
focusing on rural health care. We in this Nation are at a time 
where we are relying more and more on our Guard and Reserve 
servicemembers, not only to serve, but to serve in combat 
zones. They are returning to rural areas. They are returning to 
areas that aren't supported with military treatment facilities, 
areas that may not have a VA facility close by.
    And they are not just coming back to the support of a 
military base and the unit that they know; they are thrown back 
into the civilian world. And that time between the pressure of 
combat to the time they are walking down Main Street, USA, is 
short.
    So those individuals are the ones we need to capture and 
utilize new ideas like TRICARE, telehealth, even contracting 
out specialized mental health care when appropriate. Not a 
blanket statement that we can allow our veterans to go down the 
street, but in specific areas, in specific cases where we know 
that we can reach that veteran in a timely manner to protect 
them and hopefully reduce the suicide rates, those are the 
things we need to look at.
    So I think the TRICARE discussion--and I appreciate that 
opportunity--that TRICARE discussion is just part of a larger 
equation of how can we develop as many options as possible to 
reach these returning veterans who have these very dire mental 
health care needs.
    And, yes, VA is getting overwhelmed. And, yes, VA does take 
a long time to hire, train, and utilize new employees. And this 
is an area that we need to concentrate on. And I think--I can 
tell you that the TRICARE issue brought up--The American Legion 
is studying, considering, and talking to you and your staff to 
better understand those options.
    But I think you and we have an obligation to realize how 
much that TRICARE opportunity will help the situation and what 
else needs to be added to that, so we can improve mental health 
care access and reduce the effects that our combat troops are 
coming back and dealing with.
    The Chairman. Thank you.
    Mr. Michaud?
    Mr. Michaud. Thank you. Don't want to get too comfortable 
here with this gavel here next to me.
    [Laughter.]
    Mr. Michaud. Thank you very much, Mr. Chairman.
    I would like to actually follow-up on that same line of 
thinking. When you look at a State like Maine, we are a very 
rural State, and access is an extremely important issue. And 
when you look at what we are seeing in the military today, with 
the increase in suicide rates, as well as within our veterans 
population, our female veterans--I just saw a movie, 
documentary just the other day, ``The Invisible War,'' with 
sexual assaults and some of the problems that our female 
veterans have. So access is extremely important.
    First of all, I would like to thank The American Legion 
once again for putting out ``A System Worth Saving.'' I think 
that is definitely a very good document that I enjoy reading 
every year because it really highlights some of the issues out 
there in the VA system.
    Following on the same train of thought that Chairman Miller 
brought up, when you look at access, whether it is TRICARE, 
whether it is utilizing our federally qualified health care 
clinics, I can understand some of the concerns that the 
veterans might have. And I, too, do not want the VA just being 
an insurance agency where, you know, VA will pay for services 
outside because I think there is a very important role for the 
VA to play.
    But, also, I believe that we, and you, we have to do 
everything that we can to make sure that our veterans get the 
health care that they need when they need it. And when you look 
at the fact that the mental health--Secretary Shinseki has 
agreed to hire 1,900 mental health and associated workers. With 
that, the problem being there are already 1,500 vacancies that 
he has had, some over a year, in the mental health area.
    So I am very glad that you are looking at the TRICARE 
system, and I think it is very important that we look at 
everything that we have to, to make sure they get the care that 
they need.
    But I guess my question would be, in that same vein, is if 
you look at rural States, such as Maine, when you look at 
uniqueness, whether it is Alaska or some States that have a lot 
of islands, and veterans trying to get the health care that 
they need when they need it, would you also be willing to look 
at, in the rural areas, if they do not have TRICARE services in 
those particular areas, if there might be some collaborative 
effort that we could utilize, federally qualified health care 
clinics or rural hospitals, to get those types of services?
    And, once again, I am not advocating that the VA sends 
everything out, because I don't think they should. But I do 
think that there have to be some medium ways where we can look 
at the veterans as getting the care that they need, at the same 
time making sure that the VA medical facilities are still a 
primary focus for our veterans.
    Would you want to comment on that?
    Mr. Koutz. Well, we are willing to probably work with you 
on anything to be sure that we get our veterans taken care of. 
The main thing is that they get the proper health care, and 
especially the mental health area, getting veterans taken care 
of. Because, you know, as you talked about the suicide rate, 
that is something that we have to be sure that we get that 
nearly stopped. There is way too much suicide going on, and it 
is not just the Iraq and Afghanistan veterans. There are still 
Vietnam veterans that are doing it every day.
    I don't know what the answer is, but I wish there was an 
answer that we could take care of these servicemembers that are 
doing this, and the veterans. But, yes, we are willing to work 
any way we can to take care of it.
    The Chairman. Senator Begich?
    Senator Begich. Thank you, Mr. Chairman. I just have a 
couple quick more questions. And I apologize, I may have to 
depart here. But I want to follow up on the mental health 
issue.
    And I know, as just mentioned, the amount of mental health 
providers the VA is moving forward into hiring. The challenge 
is their process of hiring and also making sure there is a 
supply line. And I hate to be so crass about it, but, you know, 
you have to have enough people in the pipeline who want to take 
those jobs in a very huge and growing field nationwide, not 
just for our veterans.
    So we have a huge challenge. So we may have to be more 
creative in ensuring that we get mental health providers 
working for the VA, or at least in cooperation with the VA, and 
also recruiting. Because the mental health services that our 
veterans will need will not go away after a few months. They 
are going to be around for many, many, many years, and we need 
to have those services available.
    So we may want to think about how we incentivize folks to 
get into this field of mental health services who then work for 
the VA and/or work with the VA. And so that is something, maybe 
a little thought that we should think about and maybe some 
suggestions back from you folks.
    The other piece is--and I know the big issue when we dealt 
with utilizing our Indian Health Services, which are actually 
run by the Alaska Native Tribal Consortium, for health care 
delivery within our rural parts of Alaska was the quality of 
care. The veterans want to make sure that, whatever happens, 
that they get quality care. No matter where it is, they want 
quality care. And the concern was always that the VA offers a 
certain level, and would these other agencies offer less? And 
that was the big concern.
    What we found, what our veterans have found, and their 
organizations have found, that our Tribal Consortium delivers 
equal or better care than the VA. But we never take the choice 
away from the veteran. The veteran can go to the VA hospital or 
the VA clinic or utilize this service. And we think it is going 
to increase capacity.
    So I think there are innovative ways to ensure the core of 
the VA is strong, stable, and growing, but also making sure we 
utilize some other arena that we put and pour in a lot of 
Federal dollars in delivering health care systems in very 
remote, rural areas. And I think that is a great way to ensure 
that we keep equal or better quality for our veterans.
    So I think as you look at this, I think we are all going to 
be very interested in this and your suggestions.
    Along with that, we were able to put into the defense 
authorization bill language for active military--we need to do 
the same thing for veterans--and that is, if you are a veteran 
and you are getting, say, mental health services here in 
Washington, D.C., but then you go home to Alaska and you want 
to get that same mental health service provider to provide for 
you, if they are not licensed in Alaska, it is not going to 
happen.
    In the active military, we have put some language in, in an 
amendment I put in, to ensure that no matter where you go you 
can still access that doctor. Because with mental health 
services, it is a little different than a physician who may be 
taking care of--maybe you had a hand injury or something of 
that nature. Mental health providers is all about a 
relationship that you are building with the provider. And so it 
is critical that that veteran continue to have that care from 
whoever they need and want from wherever they are in this 
country. And we have to think about that.
    And so I think there is an effort--we need to do like we 
did in Armed Services with veterans, the same kind of language 
to ensure that, no matter where you live, you can access that.
    Now, I know I will get in trouble with every State, with 
their medical boards and jurisdictions and all that 
gobbledygook that gets in that. But at the end of the day, if 
we have a veteran who is receiving great care, they should get 
it wherever they move and be able to access that person. That 
is why we did the telehealth medicine. No co-pays anymore 
because we think that is a great access point.
    So I just want to put that on, so as you are thinking about 
these things, please help us here.
    The other one, on the TAP program, as you know, this has 
been a challenge, the TAP program. And I know it is being 
piloted now, a new one, by VETS at the Department of Labor. I 
don't know if you have any feedback yet from how that is 
working or not working, and I don't know if anyone can comment 
on that.
    But, as you know, when I first came here 4 years ago and 
they told me it was 160 or 170 slides in a PowerPoint, I said, 
are you kidding me? I wouldn't even pay attention to that, and 
we read a lot of material around here. It was a dysfunctional 
element to transition our folks back into civilian life.
    So does anyone have any comments on this pilot program that 
is working or at least started now?
    Mr. Gaytan. We actually had staff attend the first new TAP 
pilot program.
    Senator Begich. Yeah.
    Mr. Gaytan. And it was mixed information that we received. 
We sat in with the briefings. We were impressed with some of 
the information that was delivered. We were very impressed that 
it is going to be mandatory, which it should have been a long 
time ago.
    What we are doing is giving our feedback back to the VA--
    Senator Begich. Excellent.
    Mr. Gaytan.--and letting them know where we think not only 
where they can improve in their delivery of information, but 
where they can utilize organizations like The American Legion 
to express to these individuals how we can help them when they 
transition.
    In fact, The American Legion has taken the initiative to 
author letters to the Secretary and others to ask if we can 
work together in a more collaborative way for you to share--for 
DoD and VA to share the information on these transitioning 
veterans so we can help them before they take the uniform off. 
And when they come back to their rural communities, where The 
American Legion lives and exists, we can provide that much-
needed help that they may need to access the VA, to understand 
the VA.
    These troops don't know the VA. We know the VA because we 
live and breathe it every day. But when they are coming back 
and they are taking the uniform off and they are going in a 
direction in their lives they didn't consider before, be it 
injured or leaving the military, The American Legion has a 
track record since 1919 of helping those individuals.
    VA and DoD should recognize that and allow us to help at 
the level we can help. And that comes through collaboration, 
acceptance of what we can do by sharing the information of 
those transitioning veterans. And that is what our organization 
asks for.
    So with the TAP program, it is a great approach. We are 
part of improving it. In fact, I am going to be going down to 
Norfolk on Friday to promote our claims app. We are actually 
going to show it down at the TAP program in Norfolk.
    Senator Begich. Excellent.
    Mr. Gaytan. So we, as an organization, are part of the 
process to improve the TAP program. So we are grateful that 
they want to look and improve it and they are recognizing it 
needs to be improved. Just let The American Legion be a big 
part of that.
    Senator Begich. Well, thank you very much for that comment. 
And I think--I hope I speak for the rest of my colleagues here: 
Anything we can do to help make sure you are at the table, 
especially in the redevelopment of that TAP program, if there 
is information you are sending that you think is valuable and 
maybe the listening isn't happening on the other end at times, 
you have to let us know.
    Because we think--what I have always heard is the program, 
originally, was just problematic. I am trying to be polite 
here. But having you involved is critical. Veterans being the 
test pilot, in essence, on this is critical to make sure this 
works for veterans, not just administrators to process it, but 
for veterans who need that information. So I thank you for 
that.
    If I can ask one quick question of Ms. Jones, and then I 
will cease at that point, if that is okay, Mr. Chairman.
    Ms. Jones, I know we talked a little bit about women 
veterans and what is happening. You know, I know it is a 
critical issue in what we are doing. And it is more of almost a 
wraparound service in a lot of ways, from not only the health 
care necessary, but also child care and other things.
    Can you tell me maybe the one or two or three top items 
that women veterans are saying to you that I wish we could do, 
you know, fill in the blank? Can you do that for me?
    Ms. Jones. Yes. Thank you.
    You know, in 2010, The American Legion, as I told you, did 
a women veterans survey. This is the first national women 
veterans survey done since 1985, when the VA conducted a 
survey. We know a lot of things have changed since 1985.
    We held a survey for over 30 days, for about 30 days, and 
3,012 women responded. We asked them 67 questions measuring 10 
attributes. And what these women told us is what they want 
boils down to quality health care, affordable medications, and 
fair and equitable compensation, just like our male 
counterparts. Women want to be able to walk into the VA health 
care system and receive the gender-specific health care that we 
deserve.
    Recently, I was in the hospital, in February. I stayed in 
the emergency room for 15 hours because they didn't have a room 
for a woman veteran--15 hours, with a life-threatening 
condition, because they needed to find a room for me. Women 
veterans deserve to go into the VA health care system, into the 
hospitals, and get treatment as quickly and as efficiently as 
our male counterparts.
    What women want is it to be understood that there are some 
gender-specific differences, that we want medical professionals 
to understand that women need particular things. Mammography is 
one of them. All of the mammography, or the mammograms, are 
outsourced. So we go out on a fee basis to get our mammograms. 
But it takes a long time to receive the results. What we want 
is for the VA to understand that, while we of gender-specific 
differences, we still deserve the same timeliness as they give 
to, in some ways, our male counterparts.
    And what we are asking for is not a separate facility to 
walk into; we want to go into the VA health care system, a 
system that is provided for veterans, that is built for 
veterans, that understands veterans, to include female 
veterans. But maybe a separate waiting room, especially for 
women veterans who suffer with PTSD specifically due to 
military sexual trauma.
    When the law was reduced, the standards reduced for men for 
PTSD, they left out military sexual trauma. They failed to 
reduce the standards. And women, or largely in part women, 
providing the burden of proof for women on proving their claims 
for military sexual trauma. We want to be included in that 
liberalized law for PTSD.
    So what they told us is that we want fair treatment, and we 
want the VA to understand that women are a large part of our 
military, and when we come home, we want to be cared for, just 
like our male veterans.
    Senator Begich. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    [Applause.]
    The Chairman. Thank you.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman. I really don't 
have any more questions.
    I appreciate your comments. And especially coming from 
somebody, you know, that can relay their personal experiences, 
it is very, very important. And I appreciate you sharing, you 
know, your particular ordeal. And that is certainly something I 
know that the Committee on both sides, you know, are going to 
be working hard to try and remedy. There is simply no excuse 
for that.
    Thank you, Commander, for being here. And we just 
appreciate your service, appreciate everyone's service so much, 
all that you all represent. And, again, we look forward to 
working with you in the next Congress. And, again, just 
appreciate all of your efforts.
    Mr. Koutz. We thank you. And just let me say that The 
American Legion is always here. We want to work with you to do 
the best we can for the veterans of this Nation.
    The Chairman. I would ask unanimous consent that all 
Members would have 5 legislative days to revise or extend their 
remarks or include any extraneous materials for today's 
hearing.
    Without objection, so ordered.

    [The attachment appears in the Appendix]

    The Chairman. And let me finish, Commander, again, by 
saying thank you so much for being here, being willing to spend 
your time helping us understand more what The American Legion's 
perspective is.
    And I can clearly say that without your help the job would 
be a whole lot harder. So I look forward to working hand-in-
hand with you as we move down the road together and try and 
solve the issues that are there.
    We look forward to having another VSO roundtable early in 
the next legislative session, which is right around the corner. 
We know we have an election in just a few weeks and a lame-duck 
session, and then we will be returning for the 113th Congress.
    So I appreciate you being here. I appreciate everybody 
being here for your session in Washington.
    And, with that, this hearing is adjourned.

    [Whereupon, at 11:35 a.m., the Committees were adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller

    Good morning.
    Thank you to all who have joined us. I am pleased to be joined by 
my colleagues from both sides of the Capitol, but I regret that changes 
to the Congressional calendar have prevented many Members from 
attending today. However, we are live streaming this hearing on our Web 
site at Veterans.House.Gov so that your members and our Members can 
watch online. We will also have the hearing available on our Web site 
for future reference, so that the public can always come back and view 
these proceedings.
    The American Legion's annual legislative presentation before these 
committees helps us shape policies and address issues impacting current 
and former servicemembers around the country. We value your input, and 
today provides us another opportunity to discuss solutions to problems 
and ensure the effectiveness of programs that work well for veterans.
    With a membership of nearly 2.4 million, the American Legion 
represents veterans from many different conflicts and all regions of 
the Nation and the world. The diversity of your membership is reflected 
in the numerous activities in which the Legion engages, not just in its 
tireless work here in Washington. Whether through working with families 
and youth organizations, such as the Boy Scouts, mentoring a future 
servicemember, aiding a veteran with a claim, or providing funeral 
honors for a veteran who has been called home, the Legion's positive 
impact is felt every day.
    I want to extend a warm welcome this morning to the American 
Legion's 2012-2013 National Commander, James E. Koutz. We look forward 
to hearing your testimony, and thank you for sharing your legislative 
agenda with our committees and Congress.
    I also want to welcome every member of the American Legion and its 
auxiliary here today, including a special welcome to the national 
president of the Auxiliary, Ms. Peggy Thomas, of Richmond, Virginia. 
Thank you, Ms. Thomas, for the fine work the Auxiliary does. We must 
all remember that family members also sacrifice in support of our 
warriors. Thanks to each of you for your service and for traveling from 
across the country to be with us today.
    Like many of you, I am proud to call the Sunshine State home, and 
would ask those who have made the trip from Florida to please stand or 
wave and be recognized.
    Before we begin, I would just like to say that this week hasn't 
been VA's finest. With the release of the report from the Office of the 
Inspector General on VA conference expenses, it is apparent we have a 
leadership void at VA. Without strong leadership at VA, I am concerned 
that some of the best ideas we put forth will never realize their full 
potential. VA is facing major obstacles - a backlog that continues to 
grow exponentially, a mental health care crisis, bureaucracy, and now 
this latest report that VA employees went on a spending spree with 
veterans health care funding. Not only did senior leadership fail to 
ensure effective planning for this large event, they also failed to 
ensure sound stewardship of taxpayer dollars.
    Disappointed is a polite word to describe my thoughts about this. I 
am disappointed that it has taken an OIG investigation to bring this 
lavish spending to light. I am disappointed that VA failed to take 
corrective action earlier. And I am disappointed that, in light of 
these findings, we are hearing the same thing we always hear from VA - 
``we will change, we have put safeguards in place, we don't condone 
this behavior.'' We've heard this tune before, but rarely do we see 
results or any substantive change. VA leadership must always hold 
itself accountable for providing veterans the best care and services 
possible and never gamble with our veterans, especially for some 
employees to have fun at a conference. That is a gamble VA leaders 
should never have taken.
    In addition to ensuring strong, consistent oversight and leadership 
at VA, another ongoing challenge we strive to address is 
servicemembers' transition, not just from DoD to VA but also to 
civilian life, including the workplace. Veterans' unemployment is of 
great concern to these Committees, and we have made great bipartisan 
strides in improving that situation during the 112th Congress.
    I am glad that VA approved the maximum 45,000 applications for the 
Veterans Retraining Assistance Program for Fiscal Year 2012, an 
important step toward helping veterans get back into the workforce. The 
opportunity for 54,000 more veterans to participate in this new fiscal 
year will sustain that momentum. The American Legion has been a 
valuable partner in VRAP's success, and outreach through your Web site 
and mailings can further the success.
    As we continue working toward job growth in the private sector for 
veterans, there are other issues which also command our attention.
    It was over a year ago that I communicated to this Administration 
that veterans funding should not be affected by sequestration. After 
receiving conflicting and vague responses during that time, we finally 
have a long-overdue answer that veterans funding will not be touched.
    To the members of these Committees, and I'm sure to many 
Legionnaires, it is puzzling why such a common-sense answer took so 
long, but it is also the right answer and one I am glad to finally 
have.
    As your written testimony discerns, significant challenges remain 
with disability claims processing. The backlog of claims continues to 
grow, despite input, including the Legion's, on ways to improve 
accuracy within the process without compromising veterans' benefits.
    We all know of the number of servicemembers returning home and what 
effect that will have on VA's claims backlog. In order for the backlog 
to be eliminated, it first must decrease. However, VA's own statistics 
show that the backlog has doubled in the past several years - a 
significant increase, not decrease. Although VA continues to reiterate 
its goal to eliminate the backlog by 2015 and to process claims with 
98% accuracy, the agency fails to provide clear benchmarks and 
timelines as to how the backlog will decrease, let alone be completely 
eliminated.
    The assistance your veterans service officers provide in filing 
claims is invaluable in guiding servicemembers through a difficult and 
time-consuming process. Helping veterans with over one-hundred fifty 
thousand claims a year is no small feat, and the expertise provided 
helps each veteran receive care and benefits in a timely fashion. 
Still, we both know that VA must do its own part, and I look forward to 
continuing to work with your organization and my colleagues in the 
House and Senate to get VA moving in the right direction - more claims 
processed, in less time, with a higher accuracy rate.
    VA also is not treating veterans with the invisible wounds of war 
quickly enough. More than half of veterans seeking mental health care - 
and these are VA's statistics - wait an average of 50 days for an 
initial evaluation. Not treatment, an evaluation. That statistic is a 
national shame. While VA may talk about processes and numbers and 
percentages, it must remember that its purpose is serving people, 
veterans who put themselves in harm's way to protect freedom for those 
of us back home. Veterans should be able to receive help when they seek 
it, not the next day, week, or month. Any delay in providing this 
treatment is unconscionable. We must look at ways to expand VA's mental 
health care capacity. This is a matter of life and death. So, I am open 
to ideas on how we can save 18 veterans a day, and I look forward to 
having a productive discussion on this issue today.
    The mandatory Transition Assistance Program participation enacted 
under the bipartisan VOW to Hire Heroes Act is another way we can reach 
out to individual servicemembers at a personal level. So, too, is the 
outreach that the American Legion provides, both through its national 
efforts here in Washington as well as through the nearly fourteen 
thousand American Legion posts throughout the world.
    You have my assurance that our committees will continue to work 
together with you to provide and improve services for our veterans. We 
have seen some major accomplishments together, but we all know there is 
much more to be done, and I look forward to even greater achievements 
for our veterans.
    Commander, thank you- not just for being here today but for 
everything you do and your organization does. The American Legion makes 
a positive difference every day in the lives of many, and I know it 
will continue to do so for many years to come.

                                 <F-dash>
               Prepared Statement of Hon. Michael Michaud

    I'd like to welcome the newly elected National Commander of The 
American Legion, James E. Koutz.
    I would also like to welcome the National President of The American 
Legion Auxiliary, Peggy Thomas. Thank you both for your advocacy for 
veterans and the enduring support of The American Legion's 2.5 million 
members.
    Before we start, I would like to extend my complements to your 
Washington staff and to tell you, Commander, what a pleasure it is to 
work with them.
    I would also like to take a moment to recognize those in the 
audience who traveled here from Maine. If there are any Legion members 
here from Maine today, would you please raise your hand?
    These Committees are charged with oversight of the Department of 
Veterans Affairs and the VA's budget. And while this has been a busy 
and frustrating year in many regards, we must look forward to how we 
can best serve veterans in 2013.
    To provide the best care and services, we need to understand how 
the veteran population is growing, changing and located geographically.
    In 2011, we had just over 22 million veterans with 34 million 
dependents and we had 540,000 survivors of deceased veterans receiving 
compensation.
    I was pleased to see that the VA's budget for 2013 reflected many 
of these changes. But they must do better outreach to eligible veterans 
and dependents to make sure they all get the services and compensation 
they have earned.
    The VA 2013, overall budget is $140 billion, an increase from the 
2012 request.
    And because of the hard work of many individuals in this room, 
advance appropriations continue to help the VA with long-term planning.
    With advance appropriations we ensure sufficient, timely and 
predictable funding for veterans' health care.
    But advance appropriations only works when we work together to pass 
year-long appropriations bills. Short term continuing resolutions are 
not helpful for planning purposes and hurt the ability of the VA to 
provide health care services.
    Although Congress may disagree on a lot of things, I hope we can 
always agree that providing strong appropriations for the VA is a non-
partisan effort that must be done each year.
    I was troubled by a July report from CBS news that found suicide 
rates among soldiers is up 80 percent.
    Our veterans are returning from war with invisible wounds that need 
treatment but are discouraged from seeking this care for a variety of 
reasons. As a Nation, we can do better - we have to get this right.
    To The American Legion, I ask for your help on this issue. As you 
lobby the Committee on Veterans Affairs, I hope you also lobby the 
Armed Services Committee for early intervention.
    Care must begin when the person is on active duty. We must do more 
to help our veterans go on to live long and productive lives.
    One of our efforts has been to make it easier for veterans to get 
credit for their military training.
    Service members are experienced in many career fields that can be 
as varied:

    <bullet>  as electronics,
    <bullet>  medicine,
    <bullet>  avionics,
    <bullet>  mechanical and
    <bullet>  air traffic control.

    These individuals have received first class training and 
experience, but unfortunately this top notch training rarely leads to a 
similar civilian career.
    More must be done on the state and Federal level to ensure that 
these skills translate into the civilian world.
    If a servicemember can get credit for military training then each 
State will be better served by capturing this talent and increasing 
productivity.
    With the American Legion's extensive network of state departments, 
your organization will be critical in working with us to move this 
issue forward at the state level.
    On the Federal level, we must also be looking at how we help 
servicemembers transition back into civilian life. The Department of 
Defense and the Department of Labor must ensure that their employment 
and transition assistance programs are providing valuable and practical 
skills.
    We must solve the disability claims problem at the VA. This has 
been an ongoing problem now for many, many years.
    If the current system is not working, we need to be honest with 
ourselves, admit the failure, and look for new solutions.
    If more money and more people have not solved the problem, we 
should look to other models to find improvements that could be 
beneficial for the VA.
    And it is not enough to process claims faster. We need to have an 
equal focus on accuracy so our veterans get the correct benefits the 
first time around and so that the VA doesn't end up doing twice the 
work because of appeals.
    We all must continue to work together to provide our veterans with 
the quality health care and benefits that they require, and that they 
have earned.
    I thank you all for being here today, and Commander, I look forward 
to hearing the Views and Estimates of The American Legion.

                                 <F-dash>
               Prepared Statement of Senator John Boozman

    Thank Commander James Koutz

    Thank the National Commander of the Auxiliary, Peggy Thomas

    Recognize the Arkansas members in attendance

    <bullet>  State Commander Mary Erdman.
    <bullet>  RD Kinsey
    <bullet>  Steve Gray

    Thank all members in attendance for coming to Washington on behalf 
of our Nation's veterans
    This is a very critical time for our nation's veterans, so it is 
more important than ever for the Legion, and all of our veterans to be 
engaged with their representatives on the issues that are affecting 
them. I also appreciate the Commander's testimony and look forward to 
working with them on many of their higher level goals that include 
economic opportunity for veterans, improving veterans' healthcare and 
ending veterans homelessness, addressing looming budget cuts that could 
impact veterans and military families, and improving care for mental 
health care and treating TBI for our returning veterans.
    All Americans are concerned about employment security, but our 
veterans in particular have been struggling to find long-term 
meaningful employment and careers. While we are going through the worst 
economic recovery since the Great Depression, Republicans and Democrats 
alike should put politics aside and work together to find common ground 
in providing our veterans with the tools they need to accomplish this 
goal. I agree with the Legion testimony that the ``Vow to Hire Heroes 
Act'' and the ``Veterans Skills to Jobs Act'' are steps in the right 
direction, and the House and Senate Veterans' Affairs Committee 
leadership and their staff deserve credit for their bi-partisan work in 
achieving those accomplishments. Yet there is more that we can do in a 
non-partisan manner, and even in these difficult times we can pay for 
those efforts without mortgaging the futures of our children and 
grandchildren by borrowing money to pay for it from countries like 
China. We owe this much to our veterans to honor their service and 
sacrifice.
    That being said, the failure of last year's Joint Deficit Committee 
has left us with looming arbitrary cuts to our National Defense, as 
well cuts to programs that support veterans and their families. The 
Constitution is clear that Congress's primary obligation is to defend 
our nation. I am pleased that the House has passed legislation to avoid 
these impending cuts to national security and to provide certainty to 
our military families. The administration could also do more to clarify 
that sequestration will not hit veterans' programs or negatively impact 
the delivery of veterans' benefits. Unlike other government programs, 
we must always keep in mind that veterans' benefits and programs are 
part of a sacred contract that guarantees these benefits for our 
veterans and their families in return for their selfless commitment and 
immeasurable sacrifice to protect this nation and its ideals.

    We must make it perfectly clear that we cannot, and will not, 
balance the budget and solve our fiscal problems on the backs of our 
men and women in uniform and their families!

    We also need to make sure that the VA has the tools, policies, and 
resources to see that our veterans are receiving their benefits, 
accurately determined, in a timely manner that provides our military 
families with the treatment and certainty they need to thrive and 
succeed. The current backlog of claims at the VA is a black-eye on this 
nation, and doesn't do justice to our appreciation for our veterans and 
their sacrifice. We are working to make progress on all fronts. On 
September 12th, the Senate Veterans Committee unanimously passed bi-
partisan legislation to improve mental health care and suicide 
prevention for our veterans, and I appreciate Chairwoman Murray and 
Ranking Member Burr for their leadership and hard work on that 
legislation. This is particularly important for our veterans in rural 
areas, and I appreciate them for including language from legislation 
that I have been working on with Senator Franken to improve the VA's 
Office of Rural Health to form a more strategic plan for improving 
access and quality of health care for veterans in rural areas. Also 
included in that bill was a provision that reflected work that Senator 
Begich and I have been doing to ensure that female veterans fleeing 
domestic violence have access to Veterans' Homeless services. I 
appreciate the inclusion of this provision as well, and appreciate the 
Legion's work to serve as a voice for the increasing number of female 
veterans who will be relying on the VA for a variety of issues when 
they return from the battlefield. We're also working on bipartisan 
legislation to improve the Transition Assistance Program and improve 
other VA programs, and I am confident that Chairman Miller, Chairwoman 
Murray, Ranking Member Burr, and all members of Congress are committed 
to working together in a non-partisan manner to ensure that we uphold 
all of the promises that have been made to our servicemembers and their 
families.
    I am very concerned about some of the reports we are receiving 
about military voter registration and participation. Recent Comments 
from General Dempsey, coupled with the failure of this administration 
and DoD to comply with the legal requirements of the Military and 
Overseas Voter Empowerment Act, which requires on-base voter 
registration assistance at every military installation, are very 
concerning to me. Then-General George Washington is noted for saying 
``When we assumed the soldier, we did not lay aside the citizen'' and 
we must do everything in our power to ensure that every servicemember 
is encouraged, and has the ability, to exercise our most fundamental 
civic duty that they have risked their lives to defend. With the 
leadership of Senator Cornyn, 21 of my Senate colleagues and I sent a 
letter on September 20th to General Dempsey expressing these concerns, 
and we are eager to receive a response.
    Finally, the Senate should pass legislation to ensure that our 
disabled veterans receive a COLA, and ensure that COLA is not delayed. 
The House passed their legislation to address this issue back on July 
9th. This is not something that should be left for the last minute to 
be garbled up with a bunch of other bills in the eleventh hour before 
Senators leave to go campaigning. Reports of a `secret hold' or a 
filibuster on this bill are inaccurate, and it is cleared for passage 
any time Senator Reid wants to bring it up. We should pass this 
legislation as soon as possible.
    We have never, and should never, use our veterans as political 
footballs. With so much going on that divides us in Congress, doing 
good work for our veterans is something we have always supported in a 
non-partisan manner. With much work to be done, with strong non-
partisan leadership from Chairman Miller, Chairwoman Murray, and 
Ranking Member Burr, I am confident that Congress will put the needs of 
our veterans first and we will get done what-needs-to-be-done, to 
ensure that we are upholding all of the promises that have been made to 
our servicemembers, our veterans, and their families.

                                 <F-dash>
             Prepared Statement of Commander James E. Koutz

    Messr. Chairmen, Chairwoman and Members of the Committees:

Issues & Opportunities
    Members of the U.S. Armed Forces, veterans, families and 
communities nationwide stand at a crossroads of history as the 112th 
Congress draws to a close. Troops are coming home from war, looking for 
education, jobs and business opportunities worthy of their sacrifices. 
Defense spending has been targeted for drastic and potentially 
dangerous cuts. Veterans are waiting in greater numbers than ever for 
decisions about their VA benefits. Families are trying to adjust to new 
lives with loved ones who have come home seriously wounded, 
psychologically changed, or both. And the flag America flew so proudly 
after 9/11 remains unprotected against those who would burn it in 
hatred of the freedom it symbolizes.
    The American Legion Family, made up of more than 4 million 
patriotic citizens of this nation, looks to Washington for leadership 
during this critical period. The American Legion, largest of all 
veterans service organizations, however, does not expect Washington to 
act without guidance from the stakeholders of our government's 
decisions.
    The following pages contain that guidance. Included are top issues 
identified by The American Legion. Thoughtful, effective work by 
lawmakers and the administration can convert these issues into 
opportunities, not just for veterans and the military community but for 
the entire nation.

Protect Defense and VA from Sequestration
Where we are
    Last year's failure of the Joint Select Committee on Deficit 
Reduction means that automatic spending cuts, known as sequestration, 
are scheduled to take effect in January 2013 unless Congress finds 
other options to reverse the deficit. Cuts in military spending are 
projected not only to compromise our national security but also 
increase unemployment by as much as an entire percentage point 
nationwide. The American Legion is deeply concerned about military 
spending reductions during a time of war. The Legion is equally wary 
about the budget and its potential effect on the Department of Veterans 
Affairs.
    Although the administration has stated that VA programs--including 
health care, benefits and education--are exempt from sequestration, The 
American Legion questions the integrity of such promises when so-called 
``federal administrative expenses'' have already been targeted. As 
recently as July, VA Secretary Eric Shinseki was unable to clearly 
define ``administrative expenses,'' leaving the door open to 
interpretation and possible crippling cuts in VA's ability to serve our 
nation's veterans.
    Hundreds of thousands of men and women who served in Iraq and 
Afghanistan now rely on VA for health care. They enter our nation's VA 
medical centers, clinics and nursing homes at a time when veterans of 
previous wars are reaching advanced ages, in need of VA's services. 
These are services they earned, deserve and were promised. No veteran 
should have to wait weeks for appointments nor travel hundreds of miles 
to see providers. Female veterans should have health-care services that 
meet their needs. Cities such as Orlando, Denver and New Orleans should 
not have to wait years for the construction of long-overdue hospitals.
    The pressure on VA will only mount as defense budget cuts drive 
down force sizes and more of our military personnel re-enter civilian 
life. DoD and VA must work in harmony to ease the transition and help 
the influx of new veterans get the help they need, including timely 
benefits, access to high-quality health care and careers that match 
their skills.
    Many key veterans programs require coordination with government 
departments such as Labor, and Housing and Urban Development, which 
enjoy no protection of any kind from sequestration. Veterans programs 
within those departments must be protected if they are to succeed.

Where we want to be
    The American Legion wants Congress to ensure that national security 
and veterans programs in VA and other departments are not sacrificed in 
the budget battle. Previous legislation, such as the Balanced Budget 
and Emergency Deficit Control Act of 1985 and the Statutory Pay as you 
Go Act of 2010, included language specifically protecting VA programs 
from cuts. As the budget deficit widens, similar and specific 
protections are necessary today.

What we are doing
    Last year, a special American Legion task force met with members of 
the Joint Select Committee on Deficit Reduction - the so-called 
``supercommittee'' - as it deliberated in futility over the ailing 
federal budget. The American Legion is aggressively pursuing a 
compromise to ensure our nation's ability to protect itself from harm, 
provide decent quality of life for members of our armed forces and 
maintain the necessary level of care for those veterans who have 
answered the country's call in its times of need. The Legion 
understands the importance of sound fiscal management, but neither the 
soldier nor the veteran caused the deficit, and neither should be 
required to shoulder an unfair portion of its reduction.

Reverse the VA Claims Backlog
Where we are
    When speaking to The American Legion National Convention in August 
2010, VA Secretary Eric Shinseki declared VA would ``break the back of 
the backlog by 2015'' by committing to 98 percent accuracy, with no 
claim pending longer than 125 days. Over the past two years, VA has 
gone backward, not forward, in both of these key areas.
    According to VA's own figures, over 65 percent of veterans with 
disability benefits claims have been waiting longer than 125 days for 
them to be processed. In contrast, when Secretary Shinseki made his 
promise, only 37.1 percent of claims had been pending longer than 125 
days. The American Legion has found through its field research that the 
problem varies greatly by regional office. While some regional offices 
may have an average rate of 76 days per claim, others take 336 days--a 
troubling inconsistency.
    Unfortunately, accuracy is also a problem, according to Legion site 
visits and field research. VA has been reluctant to publicly post 
accuracy figures in its Monday Morning Workload reports, but VA's own 
STAR reports for accuracy place the rate in the mid 80s. The American 
Legion's Regional Office Action Review (ROAR) team typically finds an 
even higher error rate, sometimes up to two thirds of all claims 
reviewed.
    VA is hopeful that the Veterans Benefits Management System (VBMS) 
will eliminate many of the woes that have led to the backlog, but 
electronic solutions are not a magic bullet. Without real reform for a 
culture of work that places higher priority on raw speed than accuracy, 
VA will continue to struggle, no matter the tools used to process 
claims.

Where we want to be
    While VA's stated goals of ``no claim pending longer than 125 
days'' and 98-percent accuracy are admirable, many veterans would 
settle for their claims being initially processed correctly in a timely 
manner. The American Legion draws on the extensive experience of its 
service officers nationwide who work within the claims-benefits system 
every day; they are best qualified to define a new plan for fixing 
inadequacies of the existing system to adjudicate veterans' claims.
    The American Legion has long argued that VA's focus on quantity 
over quality is one of the largest contributing factors to the claims 
backlog. If VA employees receive the same credit for work, whether it 
is done properly or improperly, there is little incentive to take the 
time to process a claim correctly. When a claim is processed in error, 
a veteran must appeal the decision to receive benefits, and then wait 
for an appeals process that may take months to resolve and possibly 
years for delivery of the benefit.
    The American Legion believes VA must develop a processing model 
that puts as much emphasis on accuracy as it does on the raw number of 
claims completed. Nowhere does VA publicly post its accuracy figures. 
America's veterans need to have confidence in the work done by VA, and 
that requires transparency.
    The VBMS system could allow VA to develop more effective means of 
processing claims, such as the ability to separate single issues that 
are ready to rate, starting a flow of relief to veterans while more 
complex medical issues are considered.
    Veterans service organizations such as The American Legion are 
important collaborators with VA in developing solutions to claims-
system problems. Only with open lanes of communication, in which the 
input of VSOs is received, acknowledged and utilized in long-term 
planning, will the VA-VSO partnership be able to deliver a system that 
serves needs quickly and accurately.

What we are doing
    The American Legion's network of more than 2,500 accredited service 
officers across the nation provides free assistance to veterans seeking 
their benefits. Training of these service officers is a top priority; 
knowledge of the VA system is essential to successfully navigating the 
complicated claims process. The American Legion Veterans Affairs & 
Rehabilitation Commission conducts annual training schools in 
Indianapolis and Washington, D.C., bringing in service officers from 
across the country for multi-day intensive education sessions.
    Every year, American Legion service officers assist veterans on 
more than 850,000 benefits claims and an additional 150,000 death 
benefits claims, at no cost to the veteran. American Legion service 
officers help secure more than $885 million in earned compensation and 
pension benefits a year for veterans, and more than $110 million in 
survivor benefits for servicemembers' widows and widowers.

Improve Medical Transition Process
Where we are
    Problems with the processing out of active-duty military personnel 
continue since the closure of Walter Reed Army Medical Center in 
Washington, in 2010, when care for seriously injured patients was moved 
to the Walter Reed National Military Medical Center in Bethesda, Md. 
These problems have been identified at Warrior Transition Unit 
facilities nationwide, as well.
    As of January 2012, approximately 24,000 servicemembers were 
participating in the Integrated Disability Evaluation System (IDES) 
across all branches of service, including National Guard and reserve 
units.

Where we want to be
    The American Legion urges improvements in the medical transition 
process, including:

    <bullet>  Better oversight to ensure DoD is adhering to the VA 
rating system, rather than simply using it as a guideline.
    <bullet>  More uniform implementation of the system across all 
services and all geographic regions.
    <bullet>  More clear and concise explanations of the IDES systems 
for servicemembers and their families, along with implementation of a 
single point of contact for families.
    <bullet>  Better use of the Physical Evaluation Board Liaisons, 
with better-defined responsibilities and scope for those employees.

What we are doing
    The American Legion's Medical Evaluation Board/Physical Evaluation 
Board coordinator is responsible for assisting servicemembers at 
Washington, D.C., military installations, and has representatives on 
site at Fort Sam Houston, Texas, and Joint Base Lewis-McChord, Wash., 
under the supervision of the MEB/PEB coordinator. These representatives 
act as service officers for transitioning servicemembers with medical 
or physical conditions.

Treat All Veterans Exposed to Hazardous Chemicals
Where we are
    The American Legion applauds VA for processing nearly 230,000 
claims through June 2012 that involved the three newest Agent Orange-
related conditions. The recent expansion of conditions presumed to be 
linked to Agent Orange exposure certainly created additional work for 
VA, which already faces a heavy claims backlog, but VA Secretary Eric 
Shinseki argued correctly that it was the right thing to do. Decisions 
about treating and compensating veterans exposed to deadly toxins must 
never be motivated by whether or not the road will be challenging or 
costly, but whether or not the veteran has suffered and requires 
treatment because of the exposure.
    The American Legion supports the establishment of a unified policy 
to deal with the consequences of exposure to hazardous materials in the 
military.

Where we want to be
    The American Legion urges continued study of all environmental 
hazards and their effects on servicemembers and veterans. New 
challenges, such as burn pits, must be addressed. Evidence suggests 
more than 227 metric tons of waste have been burned in conjunction with 
JP-8 jet fuel, releasing countless carcinogens into the air that 
servicemembers have breathed. At the very least, a full accounting of 
exposed veterans through a burn-pit registry or similar means would be 
an important step forward.
    Agent Orange remains a concern, as thousands of veterans exposed to 
the toxin are left behind when it comes to vital treatment and 
benefits. The American Legion remains committed to ensuring all 
veterans who served in areas of exposure receive recognition and 
treatment for conditions linked to Agent Orange. Time is running out 
for those veterans not designated as having ``boots on the ground'' 
during the Vietnam War. Studies indicate ``Blue Water Navy'' veterans 
may have experienced higher exposure rates to Agent Orange than those 
who were on the ground, due to water desalination systems on the ships; 
this never has been satisfactorily addressed by VA. The time is now to 
recognize all Vietnam veterans for their exposure to Agent Orange, not 
just those who had boots on the ground.
    The American Legion urges VA to work with DoD to finally complete 
the list of exposure locations outside Vietnam, including the C-123 K 
transport aircraft, Thailand and other supporting areas of the Vietnam 
theater, as well as Korea.
    The American Legion urges continued close scrutiny by the Institute 
of Medicine into Agent Orange, Gulf War illness and other concerns. 
When problems are identified, VA must act swiftly to ensure current 
compensation and treatment are based on the most recent scientific 
findings.

What we are doing
    The American Legion believes in treating the veteran first, funding 
the necessary research, and ensuring that service members are not 
exposed to chemical hazards again. The American Legion will continue to 
publicly support, and keep abreast of, ongoing DoD and VA research 
related to environmental hazards and exposures due to deployment, such 
as the War Related Illness and Injury Study Center's study on the 
effects of deployment as they relate to cardiopulmonary function and 
the medically unexplained autonomic functions of Gulf War veterans.

Improve VA Health Care
Where we are
    The Veterans Health Administration manages the largest integrated 
health-care system in the United States, with 152 medical centers, 
nearly 1,400 community-based outpatient clinics, community living 
centers, Vet Centers and domiciliaries serving more than 8 million 
veterans every year. The American Legion believes those veterans should 
receive the best care possible.
    The needs of veterans continue to evolve, and VHA must ensure it is 
evolving to meet them. The rural veteran population is growing, and 
options such as telehealth medicine and clinical care must expand to 
better serve that population. Growing numbers of female veterans, and a 
system that has traditionally catered to men must adapt to meet the 
needs of male and female veterans, regardless whether they live in 
urban or rural areas.
    An integrated response to mental health care is necessary, as the 
rising rates of suicide and severe post-traumatic stress disorder are 
greatly impacting veterans and active-duty servicemembers alike.

Where we want to be
    If veterans are going to receive the best possible care from VA, 
the system needs to continue to adapt to the changing demands of the 
population it serves. The concerns of rural veterans can be addressed 
through multiple measures, including expansion of the existing 
infrastructure through CBOCs and other innovative solutions, 
improvements in telehealth and telemedicine, improved staffing and 
enhancements to the travel system.
    Patient concerns and quality of care can be improved by better 
attention to VA strategic planning, concise and clear directives from 
VHA, improved hiring practices and retention, and better tracking of 
quality by VA on a national level.
    VHA's budget must be protected in order to ensure improved quality. 
Critical need areas such as construction and ongoing maintenance are 
already facing reductions, which will prove disastrous and more costly 
to VA in the long run. The American Legion supports sound investment in 
the infrastructure of VA to best meet the needs of a changing veteran 
population.

What we are doing
    The American Legion's System Worth Saving Task Force regularly 
travels across the country to evaluate VA medical facilities and ensure 
they are meeting the needs of veterans. This past year, the task force 
focused on rural health care and patient satisfaction.
    From November 2011 to February 2012, the task force conducted 25 
site visits to VA medical facilities and coordinated with VA's Office 
for Rural Health VA's Veteran Integrated Service Networks (VISNs) 1, 
15, 18 and 19; VISN Rural Health consultants; Project Access Received 
Closer to Home (ARCH); and VA community-based outpatient clinics.
    The American Legion System Worth Saving Task Force emerged from its 
field work with several concerns, including:
    VA's definition of ``rural veteran'' is derived from the U.S. 
Census Bureau and may not accurately reflect the needs of veterans who 
must travel long distances through rural areas to receive health care. 
The American Legion recommends VA expand the U.S. Census Bureau 
definition to incorporate access and driving times to VA facilities. 
The American Legion also recommends that VA medical centers implement a 
veterans transportation department that would coordinate all 
transportation programs for hospitals and their catchment areas.
    Quality of care, as always, was carefully studied by the task 
force. From April 2012 to June 2012, the task force conducted site 
visits at 25 VA medical centers and conducted 24 veteran town hall 
meetings in American Legion posts near the VAMCs to assess patient 
satisfaction and quality of care. The task force examined three 
categories: patient safety, clinical performance, and access and 
satisfaction. Although VA has made many improvements in care, many 
challenges remain, including recruitment and performance of staff, 
personal and electronic communication, and delivery of female-specific 
services. The American Legion will publish a detailed report of the 
care-quality findings this fall.

Better Care for Female Veterans
Where we are
    A 2011 American Legion study revealed several areas of concern 
about VA health-care services for women. Today, VA still struggles to 
fulfill this need, even though women are the fastest-growing segment of 
the veteran population. Approximately 1.8 million female veterans make 
up 8 percent of the total veteran population, yet only 6 percent use VA 
services.
    VA needs to be prepared for a significant increase of younger 
female veterans as those who served in the war on terrorism separate. 
Approximately 58 percent of women returning from Iraq and Afghanistan 
are ages 20 to 29, and they require gender-specific expertise and care. 
Studies suggest post-traumatic stress disorder is especially prevalent 
among women; among veterans who used VA in 2009, 10.2 percent of women 
and 7.8 percent of men were diagnosed with PTSD.
    The number of female veterans enrolled in the VA system is expected 
to expand by more than 33 percent in the next three years. Currently, 
44 percent of Iraq and Afghanistan female veterans have enrolled in the 
VA health-care system.

What we want
    The American Legion recommends VA conduct a comprehensive study of 
military sexual trauma, in conjunction with the Department of Defense 
if possible, to develop a better plan to counteract the problem.
    VA needs to develop a comprehensive health-care program for female 
veterans that extends beyond reproductive issues. Provider education 
needs improvement. Furthermore, as female veterans are the sole 
caregivers in some families, services and benefits designed to promote 
independent living for combat-injured veterans must be evaluated, and 
needs such as child care must be factored into the equation. 
Additionally, many female veterans cannot make appointments due to the 
lack of child-care options at VA medical centers. Since the 2011 
survey, The American Legion has continued to advocate for improved 
delivery of timely, quality health care for women using VA.

What we are doing
    The 2011 survey revealed concerns that have led to the 
establishment of a new American Legion Women Veterans Outreach Program 
whose coordinator is tasked with identifying best practices to improve 
services for female veterans and work with Legion departments to 
establish state coordinators to oversee female veterans programs at 
that level.
    The Women Veterans Outreach Program aims to educate veterans and 
communities that support them; to collaborate with local, state and 
federal agencies that can provide needed services; and to provide 
continued oversight of VA's execution of benefits and services. The 
American Legion's advocacy efforts seek to ensure that the identified 
needs of female veterans are being met, and, more importantly, that 
veterans are informed on the issues that affect their lives.
    Many states have coordinators and have vibrant programs while other 
states have not yet identified coordinators. Coordinators will be 
trained and educated on their responsibilities and provided the 
necessary assistance to get their programs up and running.

Repair Problems in Mental Health
Where we are
    Post-traumatic stress disorder and traumatic brain injury are the 
signature wounds of today's wars. TBI is defined as a blow or jolt to 
the head, or penetrating head injury, that disrupts brain function. 
PTSD is a disorder resulting from exposure to a traumatic event that 
involved actual or threatened death or serious injury. Both conditions 
are increasing in number, particularly among those who have served in 
Operation Iraqi Freedom and Operation Enduring Freedom.
    A 2011 Senate Committee on Veterans Affairs survey of 319 VA mental 
health staff revealed that services for veterans coping with mental 
health issues and TBI are lacking. Among the findings:

    <bullet>  New mental health patient appointments could be scheduled 
within 14 days, according to 63 percent of respondents, but only 48.1 
percent believed veterans referred for specialty appointments for PTSD 
or substance abuse would be seen within 14 days.
    <bullet>  Seventy percent of providers said their sites had 
shortages of mental ?health space.
    <bullet>  Forty-six percent reported that a lack of off-hours 
appointments was a barrier to care.
    <bullet>  More than 26 percent reported that demand for 
Compensation and Pension (C&P) exams pulled clinicians away from direct 
care.
    <bullet>  Just over 50 percent reported that growth in patient 
numbers contributed to mental health staff shortages.

    VHA and, at the request of Congress, VA's Office of the Inspector 
General have studied the problem since the survey was conducted. On 
April 23, 2012, the VAOIG released the report, ``Review of Veterans' 
Access to Mental Health Care.'' It found that VHA's mental health 
performance data was neither accurate nor reliable. In VA's fiscal 2011 
Performance and Accountability Report, VHA grossly over-reported that 
95 percent of first-time patients received a full mental health 
evaluation within 14 days. However, it was found that VHA completed 
approximately 64 percent of new-patient appointments for treatment 
within 14 days of their desired date, but approximately 36 percent of 
appointments exceeded 14 days. VHA schedulers also were not following 
procedures outlined in VHA directives, and were scheduling clinic 
appointments on the system's availability rather than the patient's 
clinical need.
    During a congressional hearing on April 25, VA announced that it 
would hire an additional 1,600 mental health clinicians, as well as 300 
support staff across the country to address three major areas of 
improvements: mental health access, staffing and quality. VA has 
developed a hiring and tracking task force to monitor and speed up the 
staffing effort. The task force also is assisting in the recruitment 
and filling of another 1,500 vacancies in mental health VA had prior to 
announcing the new positions. VHA's plan is to have most of these new 
positions filled by fiscal 2013's second quarter.

Where we want to be
    The American Legion believes VA must focus on head injuries and 
mental health without sacrificing awareness and concern for other 
conditions afflicting servicemembers and veterans. As an immediate 
priority, VA must ensure staffing levels are adequate to meet the need. 
The American Legion also urges Congress to invest in research, 
screening, diagnosis and treatment for PTSD and TBI. As with any 
increases to funding, increased oversight also is necessary to ensure 
the money is going directly to the needed programs.

What we are doing
    The American Legion Ad Hoc Committee on PTSD/TBI has closely 
examined issues related to these conditions and has begun assembling a 
set of recommendations for VA and DoD. The committee consists of mental 
health experts, dedicated senior Legion service officers and past 
national commanders of The American Legion. The committee has found 
that various alternative treatments may be effective but are not 
recognized by VA, and that some prescription drugs--such as 
Risperidone, which is not approved by the FDA for the treatment of 
PTSD--are often over used. The committee continues to meet to better 
understand the issue, present findings to American Legion groups and 
share concerns with VA.

Turn Military Experience Into Careers
Where we are
    Servicemembers and veterans have attended and graduated from some 
of the finest technical and professional training schools in the world. 
Many have experience in health care, electronics, computers, 
engineering, drafting, air-traffic control, nuclear energy, mechanics, 
carpentry and other fields. Many of their skills require some type of 
license or certificate to qualify for civilian jobs. In too many cases, 
this license or certificate requires schooling already completed 
through military training programs. Unfortunately, the agencies that 
issue the licenses or certificates do not recognize military training 
or experience. For example, a medic who treated gunshot wounds in 
Operation Enduring Freedom is qualified as a medic but will not be 
certified as an emergency medical technician in the civilian workforce 
without additional, redundant schooling.
    The American Legion is a leading voice in advocacy for the unique 
job skills veterans bring to the table. In 1997, The American Legion 
commissioned the report ``Study of Civilian Licensure and Certification 
for Veterans,'' which detailed the problem while focusing on the areas 
of aircraft maintenance and health care. In the past, barriers to this 
effort have included resistance from military and civilian sectors 
alike, but top defense officials now offer support on Capitol Hill for 
the idea of transfering military experience for credits.
    This subject has grown more important as the veteran unemployment 
rate exceeds that of civilians and has been as high as 30 percent for 
the youngest veterans. For veterans, who have already sacrificed so 
much in service to the country, the additional stresses and strains of 
unemployment, and the financial hardship that accompanies joblessness, 
can become almost unbearable, and contribute to already-high rates of 
depression and PTSD.

Where we want to be
    The American Legion is fighting for a major overhaul of the 
licensure and certification policies as they relate to military job 
skills, on the national and state levels alike. As demand for qualified 
workers in a diverse range of occupations continues to grow, veterans 
offer skills, training, dedication and discipline that translate well 
into specialized fields and trades.
    The American Legion is working with credentialing and licensing 
agencies to help veterans receive credit for their experiences, 
maximize their abilities and move quickly into productive careers. 
While the VOW to Hire Heroes Act and the Veterans Skills to Jobs Act of 
2012, are important steps that The American Legion strongly supported 
and helped shape, they are only a good start in a long march to improve 
career opportunities for those who have served in uniform.

What we are doing
    For over a decade, The American Legion has been a leading voice in 
the argument to provide veterans the opportunity to transfer military 
experience into credits toward licenses and certification. The case has 
been made to VA, the Department of Labor, DoD, through legislation, and 
at least one presidential task force. The Legion's efforts 
enthusiastically continue with the momentum of legislation passed in 
2012.
    The Legion's strategy going forward includes:

    <bullet>  Working with and counseling government agencies about the 
value of a workforce with military experience.
    <bullet>  Working with the American National Standard Institute and 
Solutions for Information Design to advise the U.S. Army Training and 
Doctrine and identify 10 credentialing agencies to evaluate their 
instruction programs.
    <bullet>  Lobbying successfully for an industry credentialing 
amendment to the fiscal 2013 National Defense Authorization Bill.
    <bullet>  Working closely with Congress on ``The Hire at Home 
Act,'' which would amend Title 38 to require - as a condition to 
receive selected veteran employment and training funds - that the state 
ensures that training received by a veteran while on active duty is 
taken into consideration in granting certain state certifications or 
licenses.

    The American Legion will continue to work with the National 
Governors Association, the White House, the National Conference of 
State Legislatures, government agencies such as the departments of 
Defense, Transportation, Energy, Labor, and others, as well as 
congressional representatives, military training commands, 
credentialing boards and the private sector. The American Legion is in 
the process of creating toolkits to assist Legionnaires in advocating 
on a state-by-state basis to address the issue of credentialing.

Expand VETS Program
Where we are
    The Department of Labor's VETS program offers employment and 
training services to eligible veterans through its Jobs for Veterans 
State Grants Program. The American Legion is eager to see this program 
grow and would like greater expansion of entrepreneurial-based, self-
employment opportunity training. Adequate funding is necessary to allow 
the programs to increase staffing to provide comprehensive case-
management job assistance to disabled and other eligible veterans.

Where we want to be
    For the program to succeed, it needs to:

    <bullet>  Implement recent reforms to the Transition Assistance 
Program so veterans can be better informed on education, employment and 
business opportunities as they transition into the civilian workforce.
    <bullet>  Expand outreach efforts with creative initiatives 
designed to improve employment and training services for veterans.
    <bullet>  Provide information about military occupations that 
provide qualifying training for required licenses, certificates or 
other credentials at the local, state or national levels.
    <bullet>  Eliminate barriers to recently separated servicemembers 
and assist in the transition from military service to the civilian 
labor market.

    The American Legion believes staffing levels for DVOPs (Disabled 
Veterans Outreach Programs) and LVERs (Local Veterans Employment 
Representatives) should match the needs of the veteran community in 
each state and should not be based solely on the fiscal needs of the 
state government. VETS should remain a national program with federal 
oversight and accountability. The American Legion seeks legislation 
that will transfer all DVOPs and LVERs from the state agencies to VETS 
for supervision and oversight to ensure that the individuals employed 
to serve veterans are not used for other programs.

What we are doing
    The American Legion is working closely with VA and the Department 
of Labor to ensure this program receives the attention it needs to 
assist veterans, and continues to grow and thrive through changes and 
improvements to the programs involved. The American Legion also 
continues to work with state departments of veterans affairs to improve 
the delivery of benefits at that level.

Help Veterans Start Businesses
Where we are
    Small business is the backbone of the U.S. economy. It has been the 
mobilizing force behind America's past economic growth. It will 
continue to be a major factor as our nation moves through the current 
recession. Reports show that businesses with fewer than 20 employees 
account for 90 percent of all U.S. firms and are responsible for more 
than 75 percent of all new jobs. There are 27 million small businesses 
in the U.S., and 99.7 percent of all firms are small businesses.

Where we want to be
    The American Legion urges Congress to establish a direct lending 
program through the Small Business Administration that would offer low-
interest loans to otherwise healthy veteran-owned and service-disabled 
veteran-owned small businesses (SDVOSB) having trouble obtaining credit 
for necessary operating expenses or expansion. In addition, The 
American Legion seeks and supports legislation to require a 5-percent 
goal, with set-asides and sole-source authority for federal 
procurements and contracts for businesses owned and operated by 
service-disabled veterans, and businesses owned and controlled by 
veterans. This includes small businesses owned by reserve-component 
members who have been, or may be, called to active duty, or may be 
affected by base closings and reductions in our military forces.
    Pressures on the federal contracting community likely will result 
in greater use of the General Services Administration's Federal Supply 
Schedule Program, and while this program holds a higher contracting 
preference than the small business programs, it unfortunately does not 
allow set-asides for any small-business group. The American Legion 
agrees that expanded use of this program will further diminish 
opportunities for small businesses, especially those owned by veterans. 
The American Legion makes the following recommendations:

    <bullet>  Service-disabled, veteran-owned small business set-asides 
should be allowed under the Federal Supply Schedule Program. Without 
this change, SDVOSBs will be limited in their quest for opportunities 
to compete for federal contracts.
    <bullet>  Implementation of a coordinated standardized training 
program for procurement staff that focuses on SDVOSB procurement 
strategies in their respective agencies.
    <bullet>  President Obama should reissue Executive Order 13-360, 
``Providing Opportunities for Service-Disabled Veteran Businesses,'' to 
increase federal contracting and subcontracting opportunities for 
veterans, and require that its tenets be incorporated into SBA 
regulations and standard operating procedures.
    <bullet>  SBA needs to emphasize Executive Order 13-360 and 
establish it as a procurement priority across the federal sector. 
Federal agencies need to be held accountable by the SBA for 
implementing the executive order, and SBA needs to establish a means to 
monitor agency progress and, when appropriate, establish a report to 
identify those that are not in compliance and pursue ongoing follow-up.
    <bullet>  To achieve the mandates of Executive Order 13-360, SBA 
must assist federal agencies in developing a strategic plan that is 
quantifiable and will assist them in establishing realistic reporting 
criteria.
    <bullet>  The House Small Business Committee should embrace and 
promote development of stronger policy and legislative language that 
champions the utilization of veteran-owned small business joint-
venturing as a ready solution to the small-business spending 
requirements of the stimulus spending initiative.
    <bullet>  Agency leadership must be held responsible for meeting 
the 3 percent congressionally mandated goal. The American Legion 
recommends the committee schedule a hearing with all federal agencies 
that consistently do not meet their federal procurement goals with 
SDVOBs.

What we are doing
    The American Legion continues to work closely with business leaders 
and government authorities to help veteran-owned small business and 
increase the roles of veteran-owned businesses in communities around 
the world. Veterans know the value of veteran employees better than 
anyone else, and veteran-owned small businesses are one among the best 
employers of veterans.

End Veteran Homelessness
Where we are
    VA Secretary Eric Shinseki has promised to devote resources 
necessary to end veteran homelessness by 2015. To fully implement that 
pledge, VA is going to have to work closely with Congress to continue 
making responsible investments in affordable housing and supportive 
service programs to help more veterans and their families. Current 
estimates put the number of homeless veterans at approximately 76,000 
on any given night, down from 2010 numbers of 131,000 or more.

Where we want to be
    The American Legion recommends providing funding for a broad range 
of appropriate and effective interventions, including:

    <bullet>  Appropriation of funds for the Supportive Services for 
Veteran Families program. SSVF funds have been used effectively by 
community organizations to prevent many veterans from becoming homeless 
and to quickly assist veterans who need nothing more than short-term 
rental assistance and limited case management to get back on their 
feet. SSVF funds also can be used to pay for employment services, 
utility assistance, child care costs and other housing-related 
expenses.
    <bullet>  Congressional support for the homeless veterans Grant and 
Per Diem transitional housing program. This program provides short-term 
housing help to homeless veterans, allowing them to get connected with 
jobs, supportive services and more permanent housing, ultimately 
allowing them to become self-sufficient. Promising new models for using 
Grant and Per Diem funds - including allowing veterans to remain in 
their GPD housing units once support from the program ends - and new 
programs focused on women veterans are helping to ensure that GPD 
continues to meet the ever-changing needs of returning veterans and 
their families.
    <bullet>  Congress should provide 10,000 new HUD-VASH vouchers 
designed to serve homeless veterans (and in many cases their families) 
who need long-term housing, intensive case management and supportive 
services. Since 2008, 37,975 vouchers have been awarded, contributing 
substantially to major reductions in veteran homelessness.

What we are doing
    The American Legion continues to lead communities by volunteering, 
fundraising, and advocating for programs and resources to help homeless 
veterans. In addition, The American Legion directly provides housing 
for homeless veterans and their families, including facilities in 
Pennsylvania, North Carolina and Connecticut. One of the goals of The 
American Legion is to help bring federal agencies, nonprofit 
organizations, faith-based institutions and other stakeholders to the 
table to discuss best practices, along with funding opportunities, so 
homeless veterans and their families can obtain the necessary care and 
help to properly transition from the streets and shelters into gainful 
employment and/or independent living.

Ease the Military-to-Civilian Transition
Where we are
    Successful adjustment from military service to civilian life is a 
complicated process. It involves culture shifts, career changes, 
government paperwork to obtain benefits, health-care services that must 
be understood, and much more. How well a veteran makes the adjustment 
often determines the rest of his or her life.
    Unfortunately, this transition has been hampered in past years by 
poor communication and coordination between DoD and VA. Efforts have 
been made to correct the process, which is improving, but too many 
veterans still slip through the cracks and fail to receive the benefits 
they earned and deserve or the support they need to restart their 
lives.
    Transition Assistance Programs (TAP) are now mandatory across all 
branches of military service, a change The American Legion commends. 
While TAP will require much fine tuning to accurately deliver what 
veterans need, implementing the program universally already is a major 
improvement.
    Current DoD policy requires new inductees to enroll in the 
eBenefits portal, which will help all future generations of veterans. 
While VA and DoD still try to iron out differences in electronic data 
systems necessary to make the Virtual Lifetime Electronic Record (VLER) 
effective, the eBenefits portal holds great promise. VLER delays are 
deeply troubling to The American Legion because the program has been a 
major focus of veterans groups, lawmakers and the federal government 
for several years.

What we want
    Fast-tracking the VLER program to ensure seamless transfer of 
medical records must be a top priority, and necessary funds must be 
allocated to fulfill it. The delays that have plagued this program are 
inexcusable. The American Legion urges Congress and the administration 
to work together to put the program back on track.
    While The American Legion is encouraged by the progress made in 
TAP, the program is still new and will require dedicated oversight and 
attention to ensure it is meeting the needs of the servicemembers it is 
designed to help.

What we are doing
    The American Legion is reaching out to servicemembers as they 
transition into the civilian world. American Legion service officers 
offer free guidance and assistance to any veteran who needs to 
understand or file for VA benefits.
    During the past year, The American Legion has developed a ``Claims 
Coach'' app for smart phones and other mobile devices to help veterans 
better understand the disability claims process and compile the 
necessary data to file complete claims for benefits. The American 
Legion is working to ensure transitioning veterans have access through 
TAP or other means, such as the Claims Coach app, to successfully 
navigate the transition process and better integrate into the next 
phase of life.

Protect the U.S. Flag
Where we are
    Since the American Revolution, countless men and women have proudly 
defended this nation under the Stars and Stripes. There is hardly a 
more poignant image of the sacrifices made by America's heroes in 
defense of this nation than a U.S. flag draped over a coffin, the last 
full measure of respect to those who have made the ultimate sacrifice. 
However, since the 1989 U.S. Supreme Court 5-4 decision in Texas v. 
Johnson, the American people have been denied the ability to make laws 
protecting from desecration this great symbol of our nation.

Where we want to be
    Surveys have shown that over 80 percent of American citizens 
support passage of a constitutional amendment that would protect the 
flag, but Congress has repeatedly fallen short of the 66-percent Senate 
supermajority needed to pass it.
    The House of Representatives has passed the amendment six times by 
supermajority, only to see it fall short in the Senate--by just one 
vote the last time it made it to the floor.
    Congress must unite in respect of the patriotic will of the 
American people and pass a flag-protection amendment to the 
Constitution that will once again allow the people to live under such 
laws as they deem prudent and to show proper respect and reverence for 
their flag.

What we are doing
    Together with the American Legion Auxiliary, The American Legion 
founded the Citizens Flag Alliance, Inc., to garner and focus grass-
roots support for the amendment. The CFA now includes 109 member 
organizations and more than 30 million Americans. Through this 
organization, The American Legion will continue to fight for passage of 
the flag-protection amendment.
    The American Legion is also dedicated to promoting positive flag-
related activities, such as promoting education about the U.S. Flag 
Code, flag etiquette, proper disposal and sharing information through a 
growing email network.

CONCLUSION
    The American Legion is the conscience of a patriotic nation. It is 
made up of men and women who have served in uniform. Its family extends 
to spouses and parents who have known the fear and uncertainty of 
deployed loved ones. The American Legion, the American Legion 
Auxiliary, Sons of The American Legion and all their supporters are 
connected by a love of country that cannot be compromised.
    Through more than 13,000 local posts around the world, The American 
Legion Family wraps its arms around four pillars of service: Veterans, 
Defense, Americanism and Youth.
    To learn more about what The American Legion does every day in 
support of those pillars, visit www.legion.org or ``like'' The American 
Legion National Headquarters on Facebook. The American Legion can also 
be found on Twitter and in mobile media. Those who really want to help 
veterans, their families and communities are urged to join The American 
Legion Family, where they can go to work every day on behalf of the 
nation they love.

    American Legion National Contacts

    Veterans Affairs & Rehabilitation
    (202) 263-5759
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ee8ffecdef2fbf9f7f1f0b0f1ecf9">[email&#160;protected]</a>
    Economic
    (202) 263-5771
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0267616d6c6d6f6b61666b746b716b6d6c426e67656b6d6c2c6d7065">[email&#160;protected]</a>

    Legislative
    (202) 263-5752
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c30393b1c30393b35333272332e3b">[email&#160;protected]</a>

    National Security/Foreign Relations
    (202) 263-5765
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d332e3b2f1d31383a34323373322f3a">[email&#160;protected]</a>

    Americanism/Children & Youth
    (317) 630-1203
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e382809aa38f86848a8c8dcd8c9184">[email&#160;protected]</a>

    Public Relations
    (317) 630-1253
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7a7a597bbb2b0beb8b9f9b8a5b0">[email&#160;protected]</a>

    The American Legion Magazine
    (317) 630-1298
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d9d5d3d5cedddad1f4d8d1d3dddbda9adbc6d3">[email&#160;protected]</a>

    The American Legion Online Update
    (317) 630-1272
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f0959c8482b09c9597999f9ede9f8297">[email&#160;protected]</a>

Preamble to The American Legion Constitution
    FOR GOD AND COUNTRY WE ASSOCIATE OURSELVES ?TOGETHER FOR THE 
FOLLOWING PURPOSES:

    To uphold and defend the Constitution of the United States of 
America. To maintain law and order

    To foster and perpetuate a one hundred percent Americanism

    To preserve the memories and incidents of our associations in the 
Great Wars

    To inculcate a sense of individual obligation to the community, 
state and nation

    To combat the autocracy of both the classes and the masses

    To make right the master of might

    To promote peace and goodwill on earth. To safeguard and transmit 
to posterity the principles of justice, freedom and democracy

    To consecrate and sanctify our comradeship by our devotion to 
mutual helpfulness.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
